<html>
<title> - SEARCHING FOR SOLUTIONS IN SYRIA: THE TRUMP ADMINISTRATION'S STRATEGY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


              SEARCHING FOR SOLUTIONS IN SYRIA: THE TRUMP 
                       ADMINISTRATION'S STRATEGY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              May 22, 2019
                               __________

                           Serial No. 116-42
                              __________

        Printed for the use of the Committee on Foreign Affairs
        

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-423PDF                 WASHINGTON : 2019  


                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             	MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey			CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia		STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida		JOE WILSON, South Carolina
KAREN BASS, California			SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts		TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island		ADAM KINZINGER, Illinois
AMI BERA, California			LEE ZELDIN, New York
JOAQUIN CASTRO, Texas			JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada			ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York		BRIAN MAST, Florida
TED LIEU, California			FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania		BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota		JOHN CURTIS, Utah
ILHAN OMAR, Minnesota			KEN BUCK, Colorado
COLIN ALLRED, Texas			RON WRIGHT, Texas
ANDY LEVIN, Michigan			GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia		TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania		GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey		STEVE WATKINS, Kansas		
DAVID TRONE, Maryland			MIKE GUEST, Mississippi			
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                                                      
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Jeffrey, The Honorable James F., Special Representative for Syria 
  Engagement and Special Envoy to the Global Coalition to Defeat 
  ISIS, U.S. Department of State.................................     7

                                APPENDIX

Hearing Notice...................................................    56
Hearing Minutes..................................................    57
Hearing Attendance...............................................    58

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Statement for the record submitted from Representative Connolly..    59

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from Chairman 
  Engel..........................................................    61
Responses to questions submitted for the record from 
  Representative Yoho............................................    69
Responses to questions submitted for the record from 
  Representative Spanberger......................................    72


 
           SEARCHING FOR SOLUTIONS IN SYRIA: THE TRUMP ADMINISTRATION'S STRATEGY

                        Wednesday, May 22, 2019

                       House of Representatives,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel [presiding]. The committee will come to 
order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the length limitation in the rules.
    The committee convenes this morning to address the crisis 
that has been raging in Syria for 9 years, as well as the Trump 
Administration's approach to this problem.
    We are glad to be joined by Ambassador James Jeffrey, the 
State Department's Special Representative for Syria Engagement 
and Special Envoy to the Global Coalition to Defeat ISIS. 
Welcome, Ambassador Jeffrey. I have known you for many years, 
and I want to thank you for your time and many years of service 
doing a fine job.
    And welcome to members of the public and press as well.
    I now recognize myself for an opening statement.
    I view the crisis in Syria as one of the greatest tragedies 
of our time. I have dealt with the Syrian issue for the entire 
length of time that I have been in Congress, even when very few 
people were talking about Syria. But now, these past years, it 
is just impossible. It really makes you cry. Hundreds of 
thousands of innocents murdered at the hands of a brutal 
dictator, a butcher, Bashar al-Assad; barrel bombs and chemical 
weapons used against civilians. We have seen the images of his 
cruelty on shocking display here right in this room when we 
hosted Caesar, the military photographer who defected to show 
the world the barbarity of the regime. Millions upon millions 
more driven from their homes, a massive humanitarian crisis. 
And from the outside, a collective failure of global leadership 
to put a stop to the violence year after year after year. It 
breaks my heart. And it is a failure of leadership in this 
country as well as around the world.
    Anyone who has followed our work knows that Syria is not a 
new topic for the Foreign Affairs Committee or for myself. More 
than 15 years ago, I authored the Syria Accountability Act to 
push back against the Syrian government's presence in Lebanon 
and crack down on a range of other harmful activities. Early in 
the civil war, I called on the Obama Administration to support 
the Free Syrian Army in its fight against the brutal Assad 
regime, and I introduced the Free Syria Act, the first 
legislation to train and equip the Syrian opposition. I have 
authored legislation, named for Caesar, to crack down on 
Assad's enablers--Moscow, Tehran--and to make sure American 
reconstruction dollars do not ultimately end up in the regime's 
hands.
    So, I bring some experience to the issue when I say how 
deeply I am concerned by the Trump Administration's scattershot 
policy--toward this war-torn country. Now, the previous 
Administration did not do anything, either. So, it is just a 
matter of nobody is doing the right thing, as far as I am 
concerned. And this is one of the reasons why we have gotten 
ourselves into the mess we are in.
    I remain particularly baffled by the precipitous withdrawal 
that President Trump announced late last year. That would have 
been an utter disaster. It would have emboldened Assad, Russia, 
and Iran. It would have given them a license to run roughshod 
over the country and an unimaginable cost of innocent life. It 
would have signaled to the world that the United States was 
withdrawing from one of the most serious hotspots and leaving 
our partners and allies twisting in the wind.
    It was remarkable to see a Secretary of Defense, Mr. 
Mattis, resign in protest. And I take my hat off to him for 
doing the only thing he could have done. That is just how ill-
conceived that announcement was.
    Though the Administration swiftly went into damage control 
and walked back the announcement, damage had already been done. 
But what does it say about our credibility on the global stage? 
What sort of signal do our friends take from this whipsawed 
foreign policy? Or our adversaries? It is a mess.
    And I worry the Administration may now be compounding that 
mess by signaling to Turkey that they can wade farther into the 
fray. We have all seen the reports that President Trump changed 
his position on Syria and said that the United States would 
leave after he had an extensive conversation with Mr. Erdogan 
of Turkey. If that is true and that is the case, it is really a 
big mistake.
    Turkey has been playing a destabilizing role with its 
campaign against our allies, the Kurds, in northeast Syria. 
Following the President's recent call with President Erdogan--
another strongman of whom President Trump seems strangely 
enamored--Turkey seems emboldened.
    We need a serious policy that pushes for a stop to the 
violence and a start to a political resolution. Otherwise, this 
cycle of carnage and death is simply going to repeat again and 
again and again. I have had a friend send me recent emails and 
other things showing me what has been happening just this week 
with the barbarity in parts of Syria, and the world just looks 
the other way and talks and talks and talks. And meanwhile, 
civilians are being murdered one by one or ten by ten, and it 
has not stopped. And it just breaks my heart.
    Every March, when we mark another year of this tragedy, I 
wonder what more we could have done to try to prevent the next 
grim anniversary. The legislation I have introduced would give 
the Administration more tools, but the Administration needs to 
devise a real strategy and flex the muscles of American 
leadership to help break the status quo.
    Again, I am glad we have the Administration's senior 
official on this situation with us today. As I said before, he 
has a long and distinguished record of which I certainly 
approve, and certainly have worked with him and know how smart 
he is. So, I look forward to hearing your testimony.
    But, first, let me recognize our ranking member, Mr. McCaul 
of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    Today, as we speak, the State Department is investigating 
signs that the Assad regime used chemical weapons in an attack 
in northwest Syria on Sunday. If true, this is very grave, 
serious news. I thank the Administration for their forward-
leaning statement that, if the Assad regime uses chemical 
weapons, the United States and our allies will respond 
forcefully.
    Ambassador Jeffrey, I want to thank you for being here 
today. I want to thank you for your service. We are grateful 
for the leadership. You have served both as the Special 
Representative for Syria Engagement and the Special Envoy to 
the Global Coalition to Defeat ISIS. You certainly, sir, have a 
lot on your plate. And I want to thank you for everything you 
have done for the country.
    In 2012, President Obama told the world he had a red line 
in Syria that Bashar Al-Assad dare not cross, or would have to 
deal with the United States. In 2013, Assad crossed that line 
using sarin gas on his own people. And I remember seeing the 
vivid pictures of dead men, women, and children, in hospitals 
and on the street, writhing in pain as they died. The world 
cried out against this crime against humanity. And yet, the 
Obama Administration did nothing.
    Because we were absent, Putin was able to intervene and his 
Russian forces continue to enable Assad's carnage in Syria 
today. Under Assad's reign, buoyed by Russia, ISIS grew, 
millions of Syrians were forced to flee, and terrorists hidden 
among them attacked innocents in France, England, Spain, 
Turkey, and Northern Africa; anywhere they could go to attack 
in the name of ISIS. Thousands of foreigners remain in Iraq and 
Syria. These include ISIS fighters, their families, and 
children born under ISIS's rule. I encourage nations around the 
world to bring their citizens home and deliver justice, as 
America has done by example.
    I was greatly concerned by the announcement that the United 
States, as was the chairman, that we withdraw our military 
presence of Syria. Fortunately, the Administration has slow-
walked its timeline for withdrawing. And I would argue that we 
cannot afford to withdraw and leave a power vacuum, just as the 
Obama Administration did in Iraq, which caused ISIS to rear its 
ugly head.
    As violence and instability continue to plague Iraq and 
Syria, the world must support a sovereign, democratic Iraq, and 
counter the meddling of nations like Iran that we heard in our 
classified briefing yesterday. Compounding an already dire 
situation, Bashar al-Assad continues to consolidate his hold 
over Syria through unrelenting brutality. Most recently, he and 
his Russian backers escalated their attacks on innocent 
civilians in Idlib, contrary to international agreements.
    Chairman Engel and I have called on Assad and Putin to 
stand down immediately. I am encouraged that the Senate also is 
marking up our Caesar Syria Civilian Protection Act today. This 
bill holds Assad and those that back him accountable through 
sanctions for his brutality against innocent people. He cannot 
be rewarded by us offering assistance to rebuild his regime.
    Millions of civilians have fled Assad's oppression and 
violence, causing devastating humanitarian, probably the most 
devastating humanitarian and refugee crisis in the world. 
Neighboring host countries have done their best to help, but 
are reeling from the influx of refugees, you know, in Turkey, 
in Jordan, and elsewhere in Europe.
    The United States has been a key partner providing its 
assistance, but this crisis will only intensify under Assad's 
continued control. The United States cannot accept a butcher 
like Assad as the leader of Syria. We cannot normalize 
relations with him, and we should be doing everything we can to 
urge other countries to similarly withhold normalization, 
including economic ties with Syria.
    Earlier this month, The New York Times published an in-
depth examination of the Assad regime's vast network of 
prisons. Over 100,000 people entered these prisons and never 
came out. We saw the pictures, the chairman and I, with a man 
named Omar who escaped one of these prisons. And it was nothing 
short of a holocaust.
    The world cannot and must not pretend Assad is the 
legitimate head of the State, and if Assad runs Syria, it 
should never be open for business. The problems with the regime 
are not only Assad himself, but his cozy relationship with Iran 
and Hezbollah. As this committee knows well, Iran is using 
Syria as part of its land bridge connecting Iran to the 
Mediterranean Sea. From their perch in Syria, Iran and its 
proxy Hezbollah, they can easily transfer weapons to Lebanon 
and threaten our ally Israel.
    So, Ambassador Jeffrey, I look forward to hearing your 
assessment of these threats. What, if anything, can be done in 
terms of political reconciliation? And what could be done in 
terms of solutions?
    And before I close, Mr. Chairman, I would like to ask 
unanimous consent that Representative French Hill, an original 
cosponsor of your Caesar Syria Civilian Protection Act, be 
recognized to participate in this hearing, as specified in 
Committee Rule 4(b)(4).
    Chairman Engel. Without objection, so ordered.
    Mr. McCaul. Thank you, Mr. Chairman. I yield back.
    Chairman Engel. Well, thank you, Mr. McCaul. I certainly 
agree with the bulk of your testimony, and I think that this is 
not a partisan issue. This needs to be handled by all of us. 
So, I thank you for your very, very good statement.
    So, Ambassador James Jeffrey currently serves as the 
Secretary of State's Special Representative for Syria 
Engagement and a Special Envoy for the Global Coalition to 
Defeat ISIS. He has held several senior national security 
positions, including Deputy National Security Advisor and 
Ambassador to Iraq, Turkey, and, of course, one of my 
favorites, Albania.
    Without objection, the witness' prepared testimony will be 
entered into the record in its entirety. And to summarize your 
remarks, Ambassador, I now recognize you for 5 minutes.

     STATEMENT OF THE HONORABLE JAMES F. JEFFREY, SPECIAL 
 REPRESENTATIVE FOR SYRIA ENGAGEMENT AND SPECIAL ENVOY TO THE 
   GLOBAL COALITION TO DEFEAT ISIS, U.S. DEPARTMENT OF STATE

    Mr. Jeffrey. Mr. Chairman, Mr. Ranking Member, members of 
the committee, thank you for this opportunity for me to brief 
you on the Administration's Syria policy today.
    The policy we have laid out in my written testimony that 
you have just entered into the record is based upon the report 
entitled, ``Report on the U.S. Strategy for Syria,'' submitted 
in classified form to the U.S. Congress by the President at the 
end of February, and is broadly consistent with voices from the 
Congress, including the recent letter by many Members of both 
Houses on how we should go forward on Syria. Our bottom line is 
this conflict must end and it must end now.
    Committee leadership has laid out the many tragedies 
associated with this conflict and the many crimes of the Assad 
regime. There are so many; I would like to just add a few and 
emphasize a few others.
    First of all, the refugee flow and ID, internally 
displaced, persons flow together has amounted to well over 11 
million people. Almost half or half of the country's population 
have fled their homes, mainly to avoid what Assad does to his 
own citizenry. This has not only put pressure, as you noted, 
Congressman, on Turkey, Jordan, and Lebanon next door, but 
also, by a flood of over a million refugees very precipitously 
toward Europe, tremendous political pressure on European 
States.
    The Assad regime, either inadvertently or deliberately, 
contributed to the rise of ISIS, which we have just finished 
defeating as a State, but still have to deal with as a 
terrorist entity throughout the Middle East and beyond. This 
regime, as you noted, has used chemical weapons repeatedly. The 
regime has threatened its neighbors, all of them, but we are 
particularly concerned about the threat of Iranian power 
projection forces in Syria aiming at Israel. And I will touch 
on that a bit in a second.
    Finally, we now have five outside military forces operating 
officially or unofficially inside Syria: the Russian, the 
Iranian, U.S., Turkish, and in the air the Israelis. Many of 
these forces are in close proximity to each other, pursuing 
differing goals. We have had some serious incidents, such as a 
shootdown of a Russian military aircraft back in September, and 
a crisis can break out at any moment. This is a new danger. We 
have seen many problems in the Middle East in the last 40 
years, but not since the Yom Kippur War in 1973 have we had so 
many military forces in such close proximity in a combat 
environment.
    So, what is the Administration strategy? We are, first, 
going to ensure the enduring defeat of ISIS. We will press for 
the withdrawal of all Iranian forces from the entirety Syria, 
and we will achieve a political solution to the conflict 
through the U.N. process under the 2015 Security Council 
Resolution 2254.
    Our top-line goal for a Syria that we and the international 
community can live with is one that does not support terror, 
one that does not use weapons of mass destruction, one that 
does not provide a base for Iran, one that does not threaten 
its neighbors, one that is accountable for what it and its 
officials have done to its own population, and one that creates 
an environment that allows its half of the population that has 
fled to come home.
    So, how will we specifically try to achieve this? As the 
President said in the U.N. General Assembly in September, we 
want to deescalate the military campaign, essentially freeze 
the battlefield, which we have pretty well done since last 
August, and second, reinvigorate the U.N. political process.
    We are working closely with our partners and allies to this 
end, offering a step-by-step implementation of the deescalation 
and political provisions of Resolution 2254; for example, in 
Secretary Pompeo's recent, very positive meetings with 
President Putin and Foreign Minister Lavrov. In so doing, we 
have broad support of the United Nations, our NATO and EU 
allies and partners, and Arab League States.
    If the regime and its sponsors do not accept this path 
forward, we, aligned with much of the international community, 
will continue the very broad economic and diplomatic pressure 
on this regime. It currently occupies only 60 percent of its 
territory and, as I said, half its population is not under its 
control. It is under crushing U.S. and EU economic sanctions, 
complemented by the additional sanctions against Iran and 
Hezbollah that this Administration has put on. It faces strong 
U.N. Security Council demands for political change and is 
subject to a boycott on reconstruction assistance and on 
diplomatic recognition, including any return to the Arab 
League.
    We would much prefer to pursue the positive agenda of 
deescalation and political reinvigoration I just described, but 
we are prepared to maintain our policy of pressure, including 
full support for Israeli actions in defense of its national 
security as long as required.
    Thank you.
    [The prepared statement of Mr. Jeffrey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Ambassador.
    Let me ask you a quick question. I am hearing from my 
sources that there are terrible, ongoing attacks against the 
civilian population every day in Syria. Mr. McCaul mentioned it 
in his remarks. Can you tell us what is happening? Idlib, 
Idlib.
    Mr. Jeffrey. About 2 weeks ago, the regime launched ground 
attacks into Idlib. This is the first time that ground attacks 
have occurred, Mr. Chairman, since the Sochi agreement between 
Turkey and Russia to impose a cease-fire in that area back in 
September.
    There have been both attacks by the opposition, 
particularly a group that we consider terrorists, Hayat Tahrir 
al-Sham, an offshoot of al-Qaeda, in Idlib against the regime 
and against a Russian base to the south off and on in that 
intervening period, and air strikes by Russian and Syrian 
forces, artillery exchanges. But this is the first ground 
defense, and it has been going on for about 2 weeks.
    It has taken about 74 square kilometers of territory, not 
very much, actually not in Idlib, but to the south in northern 
Hama Province. But, right now, the opposition is reinforcing 
its positions. It has launched a counterattack. It has retaken 
some ground in the last 24 hours.
    Turkey has a military presence there, observation post. 
Turkey has reinforced generally its positions. And so, we see a 
seesaw battle right along the perimeter.
    DNM/Meanwhile, as you noted, the bombing attacks, which 
have been indiscriminate and very vicious, have sent some 150 
to 200 thousand people in Idlib, most of whom are already 
internally displaced people, to move again to temporary housing 
and create a huge burden on our very broad humanitarian effort 
that we and the rest of the international community are making.
    So, we are watching this very closely; also, the reports of 
chemical weapons use. So far, we cannot confirm it, but we are 
watching it.
    Chairman Engel. In terms of Idlib, what message are we 
sending to the Russians? Are they complying with cease-fire 
obligations or are they not?
    Mr. Jeffrey. We have pressed the Russians repeatedly, 
including in the visit of the Secretary to Sochi last week with 
President Putin, to return to the cease-fire that the Russians 
agreed to. The Russian argument is--and it has some limited 
credibility--that it receives attacks from this terrorist 
group, Hayat Tahrir al-Sham, and that the Turks had agreed to 
deal with that group and they have not.
    That is true, but, nonetheless, we think that these attacks 
are not all that significant and what we really need in Idlib 
and throughout the rest of the country is a cease-fire. It is 
called for in the U.N. resolution. It reflects the reality on 
the ground. These conflicts or these back-and-forth exchanges 
are not going to change very much in the future of Syria. They 
just put tremendous pressure on civilians and they raise the 
specter of one kind of nation-to-nation clash, as we have come 
close to having in the past. So, we are very much engaged in 
trying to get this stopped and get it back to the cease-fire we 
have had, basically, since September.
    Chairman Engel. When the President mentioned that we were 
going to get out of Syria, which was a huge mistake and I hope 
they are walking it back a bit, one of the reasons that I think 
it is a terrible mistake is because we have had the Kurds 
fighting side by side with us as our loyal and faithful allies 
and friends. And they have absorbed lots of casualties, 
prevented Americans from being killed.
    And so now, to leave and abandon them, I mean, bad enough 
that this war has taken a turn that no one here is happy about, 
bad enough that there are so many civilians murdered in cold 
blood, but now if we are going to send the message that the 
United States is an unreliable ally, and that we are going to 
abandon you the minute it is convenient for us, what kind of 
message does that send and why would anybody want to be our 
allies in the future?
    Mr. Jeffrey. I think if you look at the specifics of the 
original decision, and then, the February modification of it, I 
think that we are maintaining our credibility. Here's why. The 
President was talking about American ground troops in his 
December decision. He made it very clear he wanted the 
coalition, the anti-ISIS coalition, under which the American 
forces are working, to remain on in the northeast after the 
defeat of the caliphate, the physical state of ISIS. We would 
have a different military mission. He thought that our 
coalition partners, many of whom are NATO States, could take on 
that ground role.
    We never said that we would pull out our air deconfliction 
and, essentially, air presence over the Northeast. We said 
that, as the President said publicly when he was in Iraq, we 
are willing to go back in if there are ISIS concentrations we 
need to take out with our own forces, and that we would closely 
monitor it. And he made it clear, both publicly and, also, to 
our Turkish NATO ally, that he was very concerned about the 
situation with the Kurds.
    So, we were pursuing that track, but, then, many of our 
coalition partners said, we are not going to remain in or go in 
if there is not some American presence. So, the President in 
February stated that, while we would continue our coordinated 
and deliberate withdrawal, we would be leaving a residual 
American force to work with what we hope will be a larger 
coalition presence to continue the overall stabilization 
mission in the enduring defeat of Daesh in the northeast. So, I 
think that we are in a good place with our allies on the 
ground, the Syrian Democratic Forces, and with the rest of the 
coalition.
    Chairman Engel. Well, let me just say that you have the 
hand of Erdogan again. Turkey's President Erdogan has made no 
secret of his desire to expand Turkish control over a section 
of northern Syria, extending as far as 20 kilometers south from 
the currently internationally recognized Syria-Turkey border. 
Turkey claims that this is in order to ensure its security. But 
many view it, and I view it, as a thinly veiled attempt to 
suppress the Syrian Kurds, who have been our partners in 
fighting ISIS.
    What did the President promise President Erdogan with 
respect to the presence of U.S. troops and our support for the 
SDF? What progress have you made achieving the compromise--you 
spoke about some of that--with Turkey? It both addresses their 
border security concerns, but minimizes the threat to the 
Syrian Kurds.
    And finally, as recently as early March, General Mazloum, a 
U.S. ally and head of the SDF, publicly stated U.S. forces must 
remain in Syria and stand by commitments to Syrian Kurds. What 
concerns has he raised with you? I want to give you a chance to 
expand or expound on certain of your statements because I think 
this is crucial.
    Mr. Jeffrey. What the President has told President Erdogan, 
and also what he has said publicly, is, first of all, he does 
not want any action taken against SDF allies, many of whom are 
Kurds. Second, he also does not want any attack from the SDF or 
from the Syrian Kurds against Turkey. The President is aware of 
the traditional and political links between much of the SDF 
Kurdish movement and the PKK, and the long and very tragic 
history of the PKK and its efforts to try to overthrow the 
Turkish government.
    So, the Turks do have security concerns we recognize, but 
also our allies have security concerns as well, our partners in 
the northeast. And the way we have done this is to work with 
the Turks and with our local allies and partners to set up a 
safe zone of indeterminate depth, where only local, essentially 
police would be present, and the Turks would have eyes on it; 
we would have eyes on it. And we would work this in a way with 
the SDF, who we are negotiating with, and with the Turks. We do 
not have an agreement yet, but our position is that this is the 
only secure way forward for all the people involved, us and the 
coalition in the fight against ISIS, the SDF and the people of 
the northeast, and our NATO ally, Turkey. So, we will continue 
with that.
    Chairman Engel. Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. I want to associate 
myself with your remarks in terms of I think an American 
presence is absolutely essential in Syria. I think a complete 
withdrawal, we saw what happened when we did that in Iraq. We 
should learn from our mistakes and history. It would only 
create a power vacuum which will, then, create more chaos and 
destruction. The Russians and Assad would have free rein, the 
Iranians would move in, the Turks would destroy, absolutely 
slaughter the Kurds, and God knows what would happen in those 
prisons where we have 2,000 jihadists that are not that well-
secured, in my opinion. It would be a complete disaster.
    And so, my question, I think this is probably the most 
complicated foreign policy challenge that we face. And somehow, 
you got that assignment. Congratulations to you, but we have 
got, you know, you have got SDF; you have got Assad; you have 
got the Kurds, the Sunni Arabs, the Russians, Iran, Turkey, all 
forces, and Israel to some extent. And, of course, we have a 
presence.
    I know there is a sort of plan for a political process, and 
I think in 2021 some sort of election. Can that be done with 
any legitimacy, and what role would Assad play in that?
    Mr. Jeffrey. Thank you, Congressman McCaul.
    It is a complicated situation. I have been involved in 
other ones that were really difficult as well, and for better 
or for worse, I was the Ambassador in Iraq in 2011, when we, I 
think, mistakenly, as you said, withdrew our last forces.
    The political process under the U.N. has the support of 
almost all of the nations of the United Nations, and thus, we 
are able to turn to people and say, no reconstruction 
assistance to Assad until he allows free and fair elections. No 
return to the Arab League until he does far more to have his 
own population returned to their homes.
    So, this has been working to, essentially, freeze the 
political side of the conflict until we do have the U.N. 
process move forward. At the same time, we are doing everything 
we can. We talked about Idlib, but throughout the whole country 
there are these various pockets where we are, where the Turks 
are, where the opposition is, and we are doing everything we 
can to freeze these deconfliction lines and to turn them into, 
under 2254, cease-fires that are administered or at least 
managed by the U.N. That is what the resolution calls for. And 
since last summer, there has been no significant change in 
this.
    Meanwhile, we have been able to use our freedom of action 
inside Syria to deal a final defeat to the ISIS caliphate or 
State. We still have ISIS elements functioning as terrorists or 
similar to insurgents in the northeast and elsewhere, but it is 
a very different threat now.
    So, we have made progress on ISIS. We have basically frozen 
the military conflict, and we are continuing to maintain the 
political and economic pressure on the regime. Is this a 
perfect policy? Can I promise an election in 2 years and an end 
to this? No, but I can promise that we and all of the people I 
am talking to throughout the Middle East and in Europe are 
pretty much committed to keeping the pressure on until we do 
see this political process that you described.
    Mr. McCaul. And again, I think if there was an election 
today, Assad probably would win by 95 percent, and it would not 
be a legitimate election. And so, I guess this pressure that we 
continue to put on--the Senate is marking up again the Caesar 
bill today, which will put pressure on Assad, which is good. I 
just do not know how you get all these various factions in a 
coalition of some form of governance.
    Mr. Jeffrey. We have tried in other countries with some 
success in some cases. Iraq is today a functioning democracy, 
with an awful lot of effort, to be sure.
    On any election involving Assad, I think you are absolutely 
right, based upon history, with those areas that he can control 
with his secret police. But, as I said, half of the population 
is not under his control, and the U.N. mandates this 
specifically; everyone votes, including the diaspora under U.N. 
observation. And there is one thing the U.N. does well, is 
observe elections.
    So, I think he would be quite surprised at the results of 
any election, if he behaves in the future as he has in the 
past. And it is one reason why we are pushing for elections. 
You do not get to a resolution of this conflict without 2254, 
and the center of that is a free and fair election.
    Mr. McCaul. Just let me close by saying, I chaired the 
Homeland Security Committee for 6 years. That 2014-through-'16 
period was terrifying, the number of external operations being 
plotted, I would say 95 percent of which we stopped. And now, 
we have the collapse of the caliphate.
    I want to commend you for your great work in that effort, 
but I do agree, while their governance has been taken away, 
they are still embedded and are still a threat. And I see the 
threat actually moving to places like Northern Africa and the 
Sahel region as well. So, we have to maintain a watchful eye on 
them.
    Mr. Jeffrey. I agree. Having just had the job for 3 months, 
I cannot take credit for destroying the caliphate. I will say 
that it has been American leadership through two 
Administrations. It has been an 80-country, an organization 
coalition, a true international effort, and the courage of the 
people on the ground, particularly in Syria and Iraq, who have 
done the fighting, that has led to this result. It is a good 
example of how we can succeed by, with, and through the 
international community and local partners, and it is a good 
model for the future.
    Mr. McCaul. Thank you, sir.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Thanks, Ambassador Jeffrey, for testifying, for your 
service to our Country. We are grateful.
    As I told you when you appeared before the Middle East 
Subcommittee last fall, many of us were encouraged by your 
appointment. The Syrian conflict has led to the deaths of more 
than half a million people; displaced close to 12 million, both 
inside Syria and neighboring countries; created a humanitarian 
crisis that has destabilized neighboring countries in the 
region likely for decades to come.
    The war created a vacuum that was filled by ISIS, allowed 
Iran to expand its influence throughout the Middle East and 
threaten our ally, Israel. And since its military intervention 
in 2015, Russia has used its foothold in this area to assert 
its interest throughout the region; expand its political, 
military, and economic influence; attempt to reclaim its status 
as a great power, and offer itself as an alternative to the 
United States leadership. And because of Russian and Iranian 
assistance, the Assad regime has remained in power, continues 
its assault on Syrians, including the reports of chemical 
weapons attacks just yesterday.
    Preventing the return of ISIS and ending the Syrian 
conflict through negotiated political solutions are keys to 
stabilizing the Middle East. That is clear.
    Mr. Ambassador, I commend your efforts to do so. I am 
concerned that your very serious efforts are perhaps being 
undermined by what appears to be a chaotic policy coming out of 
the White House. In your testimony before the subcommittee at 
the end of November, you said, ``Russia presses for a premature 
withdrawal of U.S. and coalition forces. Such an untimely U.S. 
military departure would enable ISIS to return, allow Iran to 
fill the vacuum, place Iraq's stability at risk, and increase 
the threats to Syria's neighbors, such as our key allies, 
Israel, Jordan, and Turkey. Our presence enables us to prevent 
ISIS's resurgence. It also indirectly helps galvanize 
diplomatic efforts to resolve the conflict. By virtue of our 
presence, we are making progress toward these goals, foremost 
among them the enduring defeat of ISIS.''
    But, in December 2018, just a few weeks after you 
testified, President Trump announced the rapid and complete 
withdrawal of U.S. troops from Syria, giving little notice to 
international allies and partners on the ground. His decision, 
you recall, prompted the resignation of Secretary of Defense 
Mattis, Special Envoy Brett McGurk. And the Administration now 
publicly says that it plans to keep anywhere from 400 to 1,000 
troops in Syria.
    The question is, do you believe the current number of U.S. 
troops is sufficient to achieve the goals that you 
articulated--defeat ISIS, remove Iranian-backed forces from 
Syria, and achieve a political solution? And in November you 
argued that a military presence bolsters diplomacy. And did the 
President's announcement in December undermine the very serious 
diplomatic efforts that you have been engaged in?
    Mr. Jeffrey. We continued our talks after--first of all, I 
stand by what I said in November--we continued our diplomatic 
talks with our partners and allies. Once again, we were not 
withdrawing from Syria or from the northeast. We never said 
that we would withdraw from al-Tanf in the south, for example. 
We were withdrawing ground forces from the northeast, but we 
were keeping other military and, if you will, diplomatic 
presence there. And our expectation was that coalition partners 
would, in the spirit of the burden-sharing that this 
Administration I think is very commendably pursuing with all of 
our allies and partners around the world, would take on a 
bigger role.
    Mr. Deutch. So, if I may, Ambassador Jeffrey, what is the 
status of that 6 months later? The President announced the 
rapid withdrawal of our troops. The hope was that our coalition 
partners were going to step up. So, what commitments have we 
seen there?
    Mr. Jeffrey. They are stepping up. We are still working, 
and the lead is Secretary Shanahan and Chairman Dunford. They 
are stepping up. We do a lot of supporting work with the 
foreign ministries and the chancellories throughout Europe and 
elsewhere in that regard. We do not have the final figure yet, 
but I am absolutely confident that it will be considerably more 
than the numbers and countries we had before, which we do not 
talk about personally officially here because we let them do 
it. But they have been----
    Mr. Deutch. Is the current--I am sorry, Ambassador Jeffrey, 
I just do not have a lot of time--is the current number of 
troops, though, sufficient to achieve the goals that you have 
laid out?
    Mr. Jeffrey. Yes.
    Mr. Deutch. And let me just ask about one other thing. 
Eleven million-12 million Syrians have left their homes, half 
of them, over 6 million, to other countries. We have talked a 
lot about the role of our military on the ground in Syria. We 
have not talked enough about the other kind of American 
leadership, which is to confront the crisis of the 6 million 
Syrians who have fled the country and the other 6 million who 
are internally displaced. Is there not a greater role for the 
United States to play in setting an example for the rest of the 
world in opening our shores to more of those refugees? Is that 
something we should consider? What kind of message would that 
send as we attempt to work our way through this crisis?
    Mr. Jeffrey. The message we are sending--and I am glad you 
raised this, Congressman--the message we are sending is 
American leadership on this crisis. Specifically, we have 
provided, the United States, almost $10 million since this 
conflict began to deal with the refugees and the IDPs. We deal 
with both. We deal inside Syria. We deal in regime areas, non-
regime areas. We deal in Turkey, Lebanon, and Jordan. And we 
are very proud of that. We are by far leading the international 
community in that.
    We believe that it is best for these people to return to 
their homes, for these people to be settled, to the extent they 
need to be settled away from their homes, as close as possible 
to Syria or within Syrian safe areas. And our goal is to 
continue that humanitarian assistance while pressing for a way 
to get them back home.
    Mr. Deutch. No greater role for us to play here?
    Mr. Jeffrey. Our greater role is to encourage the 
international community by our example to solve this conflict 
and to take care of the refugees and IDPs until it is solved.
    Mr. Deutch. Other places? OK. Thank you, Ambassador.
    Chairman Engel. Thank you, Mr. Deutch.
    Mr. Wilson.
    Mr. Wilson. Thank you. Thank you, Mr. Chairman.
    And, Ambassador, thank you for being here today.
    Can you please describe Iran's current entrenchment in 
Syria? How many troops and proxies does it have on the ground? 
And are they participating in the Idlib offensive?
    Mr. Jeffrey. Thank you, Congressman.
    Iran has some thousands of its--they call them advisors--
Quds Force elements under Qasem Soleimani of the Iranian 
Revolutionary Guard Corps, which this Administration has 
recently put on the terrorist list, long overdue. And they 
provide in some respects the leadership of a much larger 
number. I do not have the specifics, but it certainly would be 
in the 10,000-plus category of Iranian-backed proxies from 
third countries. The most prominent is the Hezbollah movement 
from Lebanon, who have been active fighting the Assad forces.
    But what really concerns us even more is Iranian power 
projection systems, long-range missiles, drones, radar systems, 
air defense capabilities, that you do not need to fight an 
internal civil war against a lightly armed opposition force. 
That is not what those forces are there for. They are there to 
threaten Syria's neighbors, beginning with Israel.
    In terms of the Idlib conflict, we have not seen a 
significant Iranian presence. We have seen Russian air presence 
and we have seen Syrian ground presence. But the Iranians are 
very active in other areas, holding other parts of the overall 
front in the country.
    Mr. Wilson. And this increasing concern about Assad's 
involvement and exploitation of the U.N. activities in Syria, 
for example, is it true that U.N. Food and Agriculture 
Department has given more than $13 million to the Syrian 
Ministry of Agriculture for seed and fodder? And additionally, 
is it true that the U.N. spends approximately $10 million 
annually for the Four Seasons Hotel in Damascus, which is owned 
by the Assad regime money launderer, Samer Foz, currently under 
EU sanctions?
    Mr. Jeffrey. Thank you.
    I can confirm that the U.N. does have a headquarters in the 
Four Seasons Hotel and that Foz is the owner of it, or at least 
he is the controller of it. And we are looking very carefully 
at Foz. The EU has, commendably, already sanctioned him. I 
cannot commit to the $10 million figure. I will have to look at 
it.
    The U.N. does provide some assistance to government 
agencies in Syria, as do other international assistance 
agencies; also, to the Syrian Red Cross, but in most cases 
these are fairly well monitored and managed to assure that it 
is not being diverted to the regime. But we will look into that 
specific contribution as soon as we can.
    Mr. Wilson. Thank you very much.
    And do you believe that we can adequately defeat ISIS 
operational capabilities in Syria while Assad remains in power?
    Mr. Jeffrey. No. I think that I will not say Assad remains 
in power. While Assad's policies remain anything like what we 
have seen now, we will be able to sustain a ISIS stabilized 
area in the northeast with the policies we have now. But in the 
rest of the country we see ISIS quite active. They have a 
presence in Idlib and they have a presence in the southern 
desert on the other side of the Euphrates. We have seen very 
little capability of the Assad regime to defeat ISIS 
militarily, and Assad's policies to his own population are the 
main accelerant to recruiting for ISIS throughout that country.
    Mr. Wilson. And finally, what is the U.S. policy regarding 
the best way to hold Assad and his associates accountable for 
their crimes against the Syrian people? What efforts are we 
making to document his crimes and hold members of the regime 
criminally responsible?
    Mr. Jeffrey. There is a report that is coming up today from 
the Syrian Justice and Accountability Center. There is a U.N. 
independent agency that is monitoring these things. Of all of 
the conflicts I have been involved in, Congressman--and that is 
a fair number--this is the one that has the most involvement by 
the United Nations, by the international community more 
generally, and by Syrian citizens, by local citizens 
themselves, in trying to hold this regime accountable. The 
record is very clear, and this is part of the reconciliation 
and political process.
    Mr. Wilson. That is very encouraging.
    And I yield back my time.
    Chairman Engel. Thank you, Mr. Wilson.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    As the chairman stated in his opening comments, what has 
happened in Syria really is a tragedy. And there have been 
missed opportunities at the outset of the civil war, certainly 
a missed opportunity in 2013 when he crossed the red line. And 
we are now in a mess here.
    Ambassador Jeffrey, thank you for your service. I also want 
to commend our prior Special Envoy. Brett McGurk, who really 
dedicated a lot of time and effort into solving this issue, as 
well as solving ISIS.
    The frustration that I have--and it is not directed at you, 
Ambassador Jeffrey--but I agree with the goals that you have 
laid out, but what we are looking at is not something that is 
going to happen in a year or 2 years. What we are looking at is 
a sustained commitment over years, if not decades. Particularly 
when you look at the reconstruction, if the goal is to allow 
the Syrians that have fled to return to their homeland, this is 
going to be a long, sustained, international effort. And the 
President's failure to engage Congress, because Presidents are 
here 2 years, maybe another 4 years, et cetera, but Congress 
will be here for a long time, and we have got to have this 
sustained commitment and partnership.
    What frustrates me is the interagency joint decisionmaking 
process. I was in the region last December. We met with Brett 
McGurk. We met with our commanders in the field. Everything was 
going well. We came back the next week and a policy shift was 
tweeted out that said we were withdrawing. Clearly, no one knew 
that. To the best of my knowledge, the Special Envoy did not 
know that that shift was coming. Secretary Mattis did not know. 
General Votel has talked about the fact that he was not 
informed about it. And we cannot have policy that--you know, I 
am not questioning the decision; that is up to the President, 
but if we are going to do this, we have to have the full team 
on the same page working together. So, that is just my 
statement.
    I think the Members of Congress here share your desire to 
find a solution over the long term for Syria, and it is in our 
interest to do that. Given where we are today, Assad currently 
controls about 70 percent of the country. His forces look like 
they are continuing to make advances. You know, this is not 
someone that we like. This is a brutal dictator. He should be 
held accountable for his crimes. But is there a solution at 
this juncture politically that does not involve bringing Assad 
to the table? And what is our strategy and how do we do that?
    Mr. Jeffrey. Right. Any strategy involves the Syrian 
government under Assad or, if they decide he has to stand for 
elections in 2021, somebody else to come to the table. That is 
how the U.N. works. But there is a big price if they do not 
come to the table.
    As I indicated in my opening remarks, we are pretty 
confident that that package of measures that we and the 
international community are imposing on the Assad regime are 
making them think about options and making their supporters, 
both Russia and Iran, think about ways to get out of this mess, 
rather than stay in it, because it is dangerous and very costly 
for everyone, but beginning with Assad, Iran, and Russia. So, 
that is the general way forward.
    But we will continue this pressure until we do get a 
conclusion that meets our and our partners' and allies' 
security interests. That is absolutely essential to us. I think 
that, again, our presence in Syria, including the northeast, 
while in the long run we are planning on leaving there, for the 
moment we are keeping a residual force. That is in response to 
concerns of our allies and partners, and a response, quite 
frankly, of concerns from the U.S. Congress. We adjusted the 
policy a bit and will continue to listen to both you and people 
around the world who are working with us in this collective 
effort, because there is agreement on the end-state, to try to 
do the best job we can.
    Mr. Bera. Well, thank you for that. And again, going 
forward, as you go back to the Administration and share with 
them, look at Congress as an ally and share with the 
Administration that both Democrats and Republicans in a 
bipartisan way on this committee share that goal of trying to 
find a peaceful resolution here, and understand that long term 
it is the same commitment, and we are allies, not adversaries.
    Mr. Jeffrey. We all appreciate that. Thank you.
    Chairman Engel. Thank you, Mr. Bera.
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman.
    Ambassador Jeffrey, over here. Thank you for your time and 
your lifetime of service in the diplomatic arena, sir.
    I know we are all talking about this, but I want to 
continue with some additional questions in this arena. In 
September, you know, a colossal humanitarian crisis was averted 
when Turkey and Russia helped broker a cease-fire between the 
Assad regime and opposition groups still active in Idlib, the 
last remaining opposition stronghold. Yet, Russia and Assad 
escalated violence in the months since the so-called truce was 
agreed to, killing at least an additional 170 civilians and 
displacing thousands more.
    A few days ago, Russia again claimed that Syrian government 
forces would, quote, ``unilaterally cease-fire'' in Idlib. But 
opposition forces say that shelling and air attacks have 
continued. And I am deeply concerned about the safety of the 3 
million civilians in Idlib. What does this development mean for 
civilians and displaced persons?
    Mr. Jeffrey. If the fighting continues and, in particular, 
if it gets worse, because it is only in a very small section of 
greater Idlib at present--in fact, it is actually, as I said, 
across the border into Hama Province----
    Mrs. Wagner. Right.
    Mr. Jeffrey [continuing]. And Latakia Province.
    But we are very, very concerned about this. We are 
concerned, first, about the use of chemical weapons, which we 
are still looking into, but at anytime this regime is willing 
to consider chemical weapons to aid its ground attacks, because 
it has the world's worst infantry fighting for it against 
people who really will fight for their lives and for their 
freedom.
    Second, we are very concerned about the refugee flows, but, 
beyond that--and President Trump summed it up back in 
September, as you indicated, which gave impetus to the Sochi 
agreement----
    Mrs. Wagner. Right.
    Mr. Jeffrey [continuing]. Because 10 days earlier Putin 
rejected a cease-fire. The President came out on the record and 
said it would be a reckless escalation of this conflict if 
there was a massive advance by the Syrian forces. So, beyond 
the chemical weapons, beyond refugees, a major military shift 
on the ground is not conducive to a settlement to this 
conflict. There can be no military solution. That is our 
position.
    We have been working with the United Nations, two Security 
Council meetings in the past 10 days, a statement by the 
Secretary General of the U.N. The top EU three, Britain, 
France, and Germany, issued a statement. So, we are mobilizing 
the international community. We are working closely with them 
and they are working closely with us to put pressure on Russia. 
That was a major purpose of the trip to Sochi last week. And I 
think it is having some effect.
    Mrs. Wagner. Well, and speaking of Russia, I know that 
Russia is playing a central role in the Astana talks, the 
regime's kind of preferred peace process. Opposition groups 
have said they doubt Russia's trustworthiness, but have been 
willing to take, I guess, the risk, in the hopes of ending the 
war.
    Considering Russia's willingness to continue strikes on 
civilians during even this cease-fire, their doubts are more 
than, I think, justified. How can Russia credibly broker a 
peace agreement? And has Turkey provided a counterbalance at 
all?
    Mr. Jeffrey. We do not turn to Russia to broker an 
agreement. We turn to the U.N. to do it. It is the U.N.'s job. 
The U.N. has appointed a Special Envoy, Geir Pedersen. We 
support him 100 percent. He deals with the Russians----
    Mrs. Wagner. And that is my point; they are trying to 
broker this deal in the Astana talks. It just seems untenable 
to me.
    Mr. Jeffrey. We have not seen much success in the so-called 
Astana talks, and we continue to urge all parties to put their 
emphasis into the U.N. effort that is headquartered in Geneva. 
We work closely with the Russians. The Russians at time, for 
example, they did broker a cease-fire with Turkish President 
Erdogan over the weekend. It was violated by both sides----
    Mrs. Wagner. Right.
    Mr. Jeffrey [continuing]. But we did see a diminution of 
the fighting at least. And we will probably, if experience is 
any guide, see several other pathetic, sorry, and much-broken 
cease-fires that will eventually slow down the conflict. That, 
for us, is what victory looks like in this awful war.
    Mrs. Wagner. It is just awful, and I know that the 
civilians in Idlib said that they fear mass extermination----
    Mr. Jeffrey. Yes.
    Mrs. Wagner [continuing]. Again by the regime, as Assad 
consolidates his territorial gains.
    Can you assess any more those concerns, anything you 
anticipate the State Department is going to be able to do to 
prevent these further mass atrocities, sir?
    Mr. Jeffrey. Again, we have our military presence in the 
region. And while its purpose is to defeat ISIS, our military 
presence inside Syria, we support the Turkish military presence 
in the northwest as a way to maintain stability without the 
regime pushing in. We support Israel's effort, very strongly 
Israel's efforts, including, while not official, over Syria 
against Iranian targets, as well as the diplomatic and economic 
measures that I have talked about here. It is a very broad 
gamut of activities that we are trying to manage and 
orchestrate here.
    Mrs. Wagner. Thank you, Ambassador.
    And thank you for your indulgement, Mr. Chairman. My time 
has expired.
    Chairman Engel. Thank you, Mrs. Wagner.
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Thank you, Ambassador, for coming before us to testify.
    The long, violent, drawn-out civil war in Syria and the 
ongoing terror campaign by ISIS is extremely concerning to all 
of us. I am particularly sort of concerned with the involvement 
of all the actors in this savage conflict that has led to the 
deaths of hundreds of thousands of Syrians and unleashed a 
major exodus of folks that have been maimed with dirty bombs 
and all kinds of nasty warfare.
    But, yet, there are external actors in all of this. For 
example, you have the Russians. Let's go through this. And the 
Trump Administration has a friendly, if not complicit, 
relationship with the Russians. You have the Iranians, who just 
yesterday President Trump said they have not shown any evidence 
of an attack, but, yet, went ahead to threaten them. You have 
Turkey, which President Trump just lowered their tariffs on 
steel from 50 percent to 25 percent, sending them to the 2018 
levels. You have the Saudis and MDS. And, of course, we all 
know about the Khashoggi incident and how he was chopped up in 
little pieces. And yet, it seems to be an ongoing relationship 
with the White House. You have Qatar selling arms, as well as 
Saudi Arabia, to the rebels or if not terrorist groups in 
Syria. So, you have all these external actors with which we 
have sometimes a good relationship and sometimes a threatening 
relationship. This is a mess.
    Now could you unravel this for us? Could you tell us 
exactly where we stand as a nation? You know, are the Russians 
our friends or our enemies? I mean, we know they hacked into 
our elections and may be getting ready to hack in again.
    Is Iran a circumstantial ally to us and sometimes an enemy? 
Turkey, who has shown to be very brutal with its opposition and 
the Kurds? I mean, could you go down these countries, right, 
Russia, Iran, Turkey, Saudi Arabia, and Qatar, and just unravel 
this for us? This is a mess.
    Mr. Jeffrey. You have just described by workday, Mr. 
Congressman.
    [Laughter.]
    Mr. Espaillat. I did not mean to start your day in a bad 
light.
    Mr. Jeffrey. As a diplomat, you know I am going to tread 
gingerly into my response to your question. I will say that we 
believe that Russia can play an important role in resolving 
this conflict, just as it played an important role in making it 
worse. And that was the reason that Secretary Pompeo went to 
Sochi, and that President Putin met with him, because President 
Putin also, from everything I heard in the meeting--and we have 
seen otherwise--would like to find a solution to this conflict 
because it is a dangerous one for Russia. They have lost some 
troops. They have lost a lot of airplanes, and they are in a 
fairly precarious situation with a real loser of an ally in 
Assad.
    Turkey is a NATO ally. Turkey on most issues related to 
Syria is pretty closely aligned with us, and that is very 
important. It is a country of 80 million population right in 
the center of the Middle East. It is the 17th largest economy 
in the world. It is crucial for almost anything we are trying 
to do in the region, and in most areas we cooperate pretty well 
with them, on not the domestic situation where we have had our 
issues, but on foreign policy. We are concerned about the 
relationship between Turkey and our SDF partners in the 
northeast, which is why we are working this discussion or 
negotiation with the Turks in a safe zone. And we think we have 
made some progress and we are looking forward to making more.
    Again, if I go down the list of allies that we human 
rights----
    Mr. Espaillat. The Saudis and Qatar, they seem to be 
fueling and giving arms to some of the rebel groups. What role 
do they play in this?
    Mr. Jeffrey. Let me start with Iran because you raised 
Iran.
    Mr. Espaillat. Yes, that is true.
    Mr. Jeffrey. There is no doubt, including in the White 
House, that Iran is an extremely dangerous, expansionist force 
in the region. And almost everything we are doing in the 
region, to some degree in Afghanistan, but certainly Yemen, 
Lebanon, Iraq, Syria, Bahrain, and elsewhere, is focused on 
Iran's expansionist agenda and its threat to our partners and 
allies.
    Our partners and allies throughout the region--and you have 
named some of them--they all have their faults, but none of 
them are trying to expand throughout the region the way Iran 
is, and most of them are trying to do whatever desperate 
measures it takes to provide for the security and safety of 
their own populations. We disagree with their choices 
sometimes, but we think in all cases that we are dealing with 
it is sincere, with one major exception, and that is Iran.
    Mr. Espaillat. Thank you. In the interest of time, Mr. 
Chairman, thank you.
    This is a mess, Ambassador. It shows how poor our foreign 
policy efforts are as a country. We are involved in a serious 
mess there. I do not know how we can unravel this.
    Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Espaillat.
    Let me just also acknowledge the many Syrian-American 
groups who have played such a positive role in trying to end 
the carnage in Syria. It has really been helpful to me and to 
others on the committee as well.
    Mr. Wright.
    Mr. Wright. Thank you, Mr. Chairman.
    Ambassador, thank you for your outstanding service to our 
Country.
    You have mentioned Israel before. I wanted to ask you 
about, if you could talk about the landscape of security 
interests in Israel, for Israel and Syria, and what we are 
doing to work with Israel to help them navigate those issues 
and protect Israel's interest? Could you speak to that?
    Mr. Jeffrey. Certainly. Israel is a major player in the 
Middle East. Its own security and its work with other 
countries, for example, to defeat ISIS, and to push back on 
Iran, is absolutely vital for our overall strategy for the 
region.
    By the same token, Israel is also under immediate threat by 
Iranian forces in Syria who, if they can be allowed to embed 
themselves in that country with long-range systems, would be 
able to open a third front on Israel next to Lebanon and Gaza. 
And therefore, the Israelis are determined at every level not 
to let that happen. We are supporting them a thousand percent.
    I have met twice myself and once with Mike Pompeo with 
Prime Minister Netanyahu since September. So, that shows you 
the intensity of the meetings. Our National Security Advisor 
Bolton and our Defense Chiefs are constantly working with the 
Israelis to try to coordinate our policies. We share what we 
are doing with them in great detail; they do with us. They are 
an important player in our overall effort to try to bring this 
conflict to a close.
    Mr. Wright. Great. And I wanted to ask you, because I 
believe one of the great lessons of Syria is what happens when 
America abdicates, when we engage and, then, suddenly, 
disengage. And I believe one of the worst cases of absolute 
cowardice by an American President occurred in Syria when Obama 
drew a red line, they crossed it, and he walked away. And what 
happens when that happens, when America abdicates, is people 
die. Thousands died.
    And so, what I want to hear from you is, does this 
President understand what happened there and will he keep the 
promises he makes with regard to any red line that might be 
drawn in the future?
    Mr. Jeffrey. I took this job on the assumption that this 
Administration would stand by its commitments and would hold 
the line on Syria. So far, I believe it has absolutely done so.
    Mr. Wright. Excellent. Thank you, sir.
    I yield back.
    Mr. Connolly. Would my friend yield?
    Mr. Wright. Yes, I have yielded back.
    Mr. Connolly. Would you yield to me?
    Mr. Wright. Yes, sir.
    Mr. Connolly. I thank my friend.
    I just want to followup on something you said, Mr. Jeffrey, 
a little earlier. You seemed to be characterizing the fighting 
quality of the Syrian army. And I wanted to give you an 
opportunity to expand on that. Were you saying that, without 
chemical weapons, they actually would not have success on the 
battlefield?
    Mr. Jeffrey. I think it was Napoleon who once said, ``The 
worse the infantry, the more important the artillery,'' or, 
more generally, the fire support. Fire support can be Russian 
aircraft. Fire support can be barrel bombs from Syrian 
helicopters, and fire support can be chemical weapons dropped 
not only on military targets, which itself is illegal, but 
deliberately on civilians who create----
    Mr. Connolly. No, I understand that, Mr. Ambassador. What I 
was getting at was I thought there was an implicit criticism in 
what you said, and maybe accurately, about the fighting quality 
and readiness of the Syrian army without those things.
    Mr. Jeffrey. Oh, yes, they are incapable, from what we have 
seen, of defeating ISIS, for example. They, with much Russian 
help, took Palmyra several times, and then, kept losing it to 
lightly armed ISIS forces. They have not done particularly well 
in this campaign against Idlib. They are not an effective 
fighting force because, as far as we can tell, they do not 
believe in the leadership that they are supposed to die for.
    Mr. Connolly. I think that is really important testimony 
because the narrative is Assad is about to prevail, as if that 
army is a conquering, successful army, and it is really a much 
more complicated story.
    Mr. Jeffrey. Every day we come to our jobs in the State 
Department and in the U.S. Government working on Syria, our 
goal is to ensure that that Assad regime does not gain another 
inch unless we have a political process and everybody wins, not 
just him.
    Mr. Connolly. Thank you so much. And I want to thank my 
friend, Mr. Wright, for yielding.
    Mr. Sherman [presiding]. As Mr. Wright's time as virtually 
expired, I will now call on the gentleman from Texas.
    Mr. Castro. Thank you, Chairman.
    Since 2015, Russia has involved itself in Syria in order to 
support Bashar al-Assad's government. And recent reporting 
reveals Russia and Turkey have been cooperating in Syria to 
contain U.S. influence. Russian forces along with Iranian-
backed Shiite militia have also succeeded in stemming local 
insurgent groups that the United States supports.
    We have remained focused on the Geneva process as a roadmap 
to political settlement. But Russian, Iran, and Turkey have 
independently hosted their own peace talks in the Astana 
process where we are not a party.
    So, my question is, in last week's meeting between 
Secretary Pompeo and President Putin, did Syria come up and, if 
so, what was discussed?
    Mr. Jeffrey. Certainly. First of all, generally speaking, 
we do not see Russia and Turkey conspiring or cooperating to 
our disadvantage in Syria. We are aligned with Turkey on most 
issues. We do not like the Astana process very much because, 
although we are invited, we are not a member of it. But, 
generally, Turkey takes the side of the opposition and pretty 
much shares with us their positions in the Astana process. We 
just do not think it is an effective mechanism. It is not that 
we criticize Turkey's role in it per se.
    In terms of Russia, what we have talked about, again, as I 
had outlined in my comments, is a step-by-step implementation 
of a constitutional process, which is under the United Nations, 
then elections, and then, a gradual freezing of this conflict. 
Again, the U.N. Resolution 2254, December 2015, calls, in 
paragraphs 5 through 9, for step-by-step cease-fires with U.N. 
monitoring and management, and then, an overall process that 
will bring the country back to something resembling normalcy.
    That is what we have talked about with the Russians, and we 
have said, we are willing to work with you on this. Obviously, 
the Russians have had bases in Syria for a long time. Their 
bases are not in question on our part or anybody else's. They 
have an interest in a stable Syria that does not become a 
refuge for terrorism, nor do we. So, we have these common 
interests with them. Our difference is, in particular, the 
Iranian presence. The Russians have turned a blind eye to it. 
We do not see them having any interest in Iranian long-range 
systems or----
    Mr. Castro. I guess a few questions. First, I think you 
said that you do not see Turkey acting contrary to U.S. 
interests. Do you believe that Russia is acting contrary to 
U.S. interests with respect to Syria?
    Mr. Jeffrey. I think Russia's support for the Assad regime 
is a mistake. I think that there are other ways for Russia to 
achieve--and this is what we talked about in Sochi--there are 
other ways for Russia to achieve what we consider its minimum 
interest, which is to maintain its long-term military presence 
and to have a stable Syria that is not a homeland for 
terrorists. We share those two latter goals. We just do not 
think that pursuing this via the Assad regime and a military 
victory is the way to go get it.
    Mr. Castro. And you also mentioned that, I believe you 
mentioned that Russia turned a blind eye to Iranian activity in 
Syria. Is that right?
    Mr. Jeffrey. A blind eye to long-range systems that, for 
example, threaten Israel and eventually Saudi Arabia, Jordan, 
and Turkey. Russia knew that Iran was coming in because Iran 
had already been in there when Russia intervened in the fall of 
2015; that Iran would provide essentially first-class infantry 
to make up for the problems of the Assad fighting forces, such 
as the Hezbollah movement out of Lebanon and some of the 
militias from Iraq, Afghanistan----
    Mr. Castro. In addition to that, and the fact that we 
disagree on Assad, what are the other differences between the 
United States and Russia with respect to Syria? Or is that it, 
as far as the Administration is concerned? Is that the totality 
of our differences?
    Mr. Jeffrey. Basically, it is the future of the Assad 
regime. We think that this regime needs to subject itself to 
the U.N. process, free and fair elections, a new constitution 
or at least a reformed constitution, and a nationwide cease-
fire. We think that that is a political result that will meet 
Russia's interest and meet ours. We are still trying to 
persuade them of that.
    Mr. Castro. Thank you. I yield back.
    Mr. Sherman. The chair recognizes himself for 5 minutes.
    Just building on the gentleman from Texas' inquiry, I 
assume one of the things the Russians also want is to maintain 
and expand their naval base on the Mediterranean? Would that be 
an additional thing that Russia is trying to do?
    Mr. Jeffrey. They have what we particularly see as 
commercial interests. The Russians have had one or another form 
of military presence in Syria for many decades. They have done 
some additional basically legal negotiations with the Syrians 
on extending the base and that kind of thing, activities they 
can do there, not all that dissimilar from what we spend our 
lives as diplomats trying to do for our DoD partners.
    But the main----
    Mr. Sherman. But you do not see Russia, you do not think 
Russia regards their presence in northern Syria as an important 
asset for the Russian navy?
    Mr. Jeffrey. They do.
    Mr. Sherman. Oh, they do? OK.
    Mr. Jeffrey. But they have done that for many decades.
    Mr. Sherman. And they would like to maintain it----
    Mr. Jeffrey. Of course.
    Mr. Sherman [continuing]. And now expand it?
    I think the chairman was right, in one respect he was on 
the right side of history when he introduced the Free Syria Act 
back in 2013. This was the first piece of legislation which 
would have armed and trained the Syrian opposition and the 
democratic elements thereof. We are now in a much worse 
position than we were then, and we are in a much worse position 
than we would have been, had we followed his lead at that time.
    We now have the Caesar Syria Civilian Protection Act, 
passed this committee, pending I believe in the Senate. And, 
Ambassador, I believe that the Administration generally 
supports this bill. It provides for sanctions on those 
individuals involved with Assad in construction, airline, 
energy industries. How strong would we expect implementation to 
be?
    Mr. Jeffrey. We do support the Caesar Act. We are very 
grateful for everything that this House has done to impose 
sanctions on the Assad regime. This is a joint legislative-
executive branch effort, and it has borne real results, as I 
said, in putting the regime under tremendous economic and 
political pressure. It has reinforced our diplomacy. And the 
more of it you can do for us, the better we will be able to 
perform.
    Mr. Sherman. I want to return to the focus on Turkey. 
Erdogan seems to want a 20-kilometer strip along northern 
Syria. He says that is to ensure his own, the security of 
Turkey, but it seems to be for the purpose of suppressing 
Syrian Kurds, who are the bulk of the fighters for the Syrian 
Democratic Forces. If we actually do completely withdraw, what 
is the threat of a Turkish massacre of Syrian Kurds?
    Mr. Jeffrey. It is not a question of a massacre of Kurds. 
Turkey has a very large Kurdish population that are not being 
massacred, many of whom vote for Erdogan and many of whom vote 
for people who are opposed to him. But what it is is a Turkish 
concern about a second, what we call in the Middle East world, 
Qandil Mountains. Qandil Mountains is an area in northern Iraq 
where the PKK, which is a separatist Kurdish and terrorist 
movement, has had a headquarters, supported at times from 
various outside powers, and projected terrorist attacks into 
Turkey since 1984. Turkey has a very legitimate concern about a 
second Qandil Mountains being created in northern Syria. We 
understand that concern, and the President has talked to 
President Erdogan about that. He has cited it publicly.
    And we think that a safe zone--now the Turkish request is 
for 30 kilometers--we do not think that we can do 30 
kilometers. So, we are going back and forth with them on how 
deep the safe zone would be.
    Mr. Sherman. So, you are saying that we would recognize the 
right of Turkey to occupy northern Syria for how long?
    Mr. Jeffrey. I did not mention anything about the right of 
Turkey to occupy anything. What I said is a safe zone which 
would----
    Mr. Sherman. Well, everybody is for safety.
    Mr. Jeffrey. Yes.
    Mr. Sherman. That is a great euphemism, but what does it 
mean?
    Mr. Jeffrey. Well, what it means specifically is a 
withdrawal of those forces that are most associated in one or 
another way with the PKK from that zone. And then, how we and 
Turkey would ensure that the zone remains----
    Mr. Sherman. So, the YPG, which have been our most 
essential allies against ISIS, would be excluded from this 
zone, but, otherwise, not massacred?
    Mr. Jeffrey. The YPG, the idea would be that the YPG forces 
would withdraw and leave local forces and Turkey and the United 
States to figure out what we would do in the safe zone.
    Mr. Sherman. I am not sure that is a workable approach, but 
my time has expired.
    I recognize the gentlelady from Pennsylvania, Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    Thank you, Ambassador Jeffrey, for being here today.
    As our chairman, Mr. Engel, often states, one of the nice 
things about the Foreign Affairs Committee is that we often 
have bipartisan consensus on issues. And I think that concerns 
about this region of the world, and particularly Syria, is one 
of those areas that we share a lot of concerns across the 
aisle. And I thank you for the work you have been doing.
    I do have some very specific--I have a number of questions. 
So, I would like to kind of run through them. The first is, 
there has been a lot of discussion of this victory that we had 
over ISIS that was announced in, I guess it was March of this 
year. How secure do you believe that victory is?
    Mr. Jeffrey. Over ISIS as a State, which at one point was 
as large as England with 35,000 conventional or quasi-
conventional forces under its control and well more than 5 
million people in its sway, that is a huge and consequential 
victory because it was right there in the middle of the Middle 
East in key areas abutting Baghdad and the oil areas in the 
south of Iraq, and into much of Syria. So, we should be very, 
very proud of the people, beginning with those on the ground 
who did the fighting and destroyed that caliphate. That is a 
very important, necessary, but not sufficient step to end the 
ISIS threat, because ISIS has ways, as does al-Qaeda, to 
infiltrate various opposition movements, Islamic groups, 
throughout the Middle East and beyond. And we are watching that 
very closely. We have a very active program of going after them 
wherever they are.
    Ms. Wild. Is it not true that many of the ISIS fighters 
have moved to Iraq, where they will be able to operate more 
clandestinely?
    Mr. Jeffrey. There are certainly in excess--and estimates 
go back and forth, as all numbers do--but I would say in excess 
of 10,000 ISIS fighters who are now operating clandestinely 
between Syria and Iraq. And frankly, they go back and forth 
without a whole lot of problem crossing that very porous 
border.
    Ms. Wild. And how is the reduction of our troops going to 
assist us in identifying and doing something about those 
individuals that you just mentioned?
    Mr. Jeffrey. First of all, most of our troops and most of 
the very important coalition troop contingent in the fight 
against ISIS in Iraq and Syria are staying on in Iraq. The 
President made that clear when he announced in December that--
--
    Ms. Wild. Let me just stop you there. So, how many troops 
are we talking about?
    Mr. Jeffrey. I try to avoid numbers because I am not DoD, 
but I will cheat a little bit and say we have some significant 
thousands of U.S. troops, in the single digits, in Iraq, and 
our coalition presence is quite strong as well. In Syria, we do 
not talk about the numbers because we are in the process of a 
withdrawal.
    Ms. Wild. I understand that, but does not it cause 
frustration for our European allies to commit to continuing to 
support our operations in the area if they do not know what our 
level of commitment is?
    Mr. Jeffrey. In dealing very much with European partners 
and allies at a pretty high level, our basic commitment to 
maintain security and stability in the region as a whole, and 
pursue vigorously the fight against ISIS, nobody doubts that. 
We took the lead in the coalition. We did the vast majority of 
the air strikes. We provided at one point probably close to 
15,000 troops on the ground as advisors, as special forces 
teams, and such. We spent many tens of billions of dollars, 
thanks to this House, in defeating ISIS. They all made 
significant and important contributions, but nothing like what 
we did. So, they all understand that.
    Would they like more predictability? Would they like us to 
be more solicitous of their various concerns? Absolutely. But 
have I seen this in my entire career since 1977? I have also 
seen it.
    Ms. Wild. Would you agree with me that we have to avoid 
abrupt statements of--or statements of abrupt withdrawal from 
the region in the future----
    Mr. Jeffrey. I will try not----
    Ms. Wild [continuing]. As we saw in December?
    Mr. Jeffrey. I will try not to predict what we should do in 
the future.
    Ms. Wild. That was not my question. My question was, would 
you agree that we need to avoid those kinds of statements of 
abrupt withdrawal?
    Mr. Jeffrey. Consultations with our allies before we take 
decisions is always very important, Congresswoman.
    Ms. Wild. Thank you.
    And my last question is, what are we going to do about the 
tens of thousands of captured ISIS fighters in the region that 
are in, as I understand it, makeshift prisons?
    Mr. Jeffrey. Right, and that came up earlier. Having had 
some experience elsewhere with terrorists held in the Middle 
East in detention, I am pretty confident that the SDF is doing 
a good job holding these people in these facilities. In the 
facilities generally, we have eyes on in terms of humanitarian 
provisions and that sort of thing, both for the detainees and 
for the displaced people, of which we have got 74,000 in the 
al-Hol camp in northeast Syria. So, we watch this very 
carefully.
    There is about somewhere in excess of 2,000 what we call 
foreign terrorist fighters in captivity right now. Those are 
people who fought with ISIS, not from Iraq and Syria. There is 
probably some 6 or 7 thousand more from Syria and Iraq who are 
also being detained.
    Mr. Sherman. The gentlelady's time has expired.
    Ms. Wild. My time has expired. I am not sure that the 
``eyes on'' is enough, but I do not have any further time to 
inquire about that.
    Thank you very much.
    Mr. Sherman. I will now recognize the gentleman from 
Michigan.
    Mr. Levin. Thank you so much, Mr. Chairman.
    And, Ambassador Jeffrey, thank you for your fantastic, long 
career and service to our Nation, and for appearing before us 
today.
    I wanted to return to something that at least one of my 
colleagues asked you about, and you have talked about, which is 
Secretary Pompeo's meeting with Mr. Putin in Sochi, which you 
attended, I guess. I wanted to ask whether the assault on Idlib 
came up during this meeting, the Russian assault----
    Mr. Jeffrey. It did. It did.
    Mr. Levin. And how did the conversation go? Give it in ways 
that it is appropriate for you to describe here.
    Mr. Jeffrey. Yes, to the extent I can talk about 
confidential, diplomatic exchanges at the highest levels, it 
was a very strong demarche by Secretary Pompeo on the need to 
bring this battle to a close; the sooner, the better. We 
received assurances from the Russians, some of which they 
seemed to have been trying to carry out in the days since we 
were in Sochi. Trying to slow down or stop any military 
conflict with dozens of groups on the ground is not easy. We 
have had a lot of experience, much of it bad, doing it 
elsewhere. But we did believe that we made some progress with 
President Putin.
    Mr. Levin. Well, as you know better than I, the situation 
there has been very bad. We have a lot of evidence that Russia 
and Syria together engaged in a week-long bombardment, 
including targeting hospitals and civilian infrastructure. And 
people are fleeing toward the border with Turkey. We do not see 
any real evidence of change here.
    And then, yesterday, reports indicated that Assad may be 
using chemical weapons again. Is that true? Do we have evidence 
of that? And what can you tell us about it?
    Mr. Jeffrey. Thank you.
    We are still looking into that. We, at this point, do not 
have any confirmation that chlorine, which was the substance 
that was suggested or alleged, has been used. But, again, we 
have not finished our review of that.
    In terms of, again, trying to measure sincerity on a 
battlefield, it is kind of tough. But the fighting in Idlib has 
generated a large movement of civilians. We are trying to get 
this thing stopped, but it still is a very small portion of the 
Idlib region that is subject to these attacks, to the ground 
attacks. Now air attacks are going on all over Idlib, and we 
have called upon the Russians to halt them repeatedly.
    Mr. Levin. So, it is very frustrating for us here to hear 
this. With Mr. Espaillat earlier, you were sort of going back 
and forth about what a mess this is, and so forth. But this is 
a humanitarian disaster in a string of humanitarian disasters 
that have just devastated the people of Syria. What more can we 
do to stop this?
    Mr. Jeffrey. Continue doing what we are doing.
    Mr. Levin. And we specifically here in the Congress?
    Mr. Jeffrey. Right, right. First of all, pass the Caesar 
Act. Second, continue the very generous humanitarian spending. 
As I said, it is almost $10 billion. Third, if the 
Administration at some point needs stabilization funds, it has 
not asked for them, but you have actually put it into several 
of our budgets. That is very helpful. Oversight is always a 
good thing. Meetings like this are maybe difficult for 
Administration witnesses, but they are very important.
    But, finally, I will say, in defense of what we are doing, 
that at one point several years ago--in fact, pretty close to 
the present--you had Idlibs happening all over Syria. Right 
now, we have it happening in less than 74 square kilometers. 
That is, unfortunately, by the miserable standards of this 
conflict, progress, sir.
    Mr. Levin. All right. Well, I appreciate that and I credit 
it.
    And I want to associate myself with Representative Wild's 
comments about how this particular committee strives to achieve 
bipartisanship. And in that spirit, I will say that I feel like 
successive Administrations have not had the clearest policy 
toward Syria. Certainly governing by tweet has been a disaster. 
And we need to have a stronger policy toward Syria that 
advances U.S. interests and protects human rights in Syria, and 
we are not there yet.
    My time has expired. Thank you, Mr. Chairman. I yield back.
    Mr. Sherman. And in the spirit of bipartisanship, I 
recognize Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Ambassador Jeffrey, thank you for being here and the work 
you have done.
    This is, again, one of those situations that you wish it 
would just end, and end soon, like you said. I think you said 
it must end, and it must end now.
    My question to you is, can a political solution occur with 
Assad remaining in power?
    Mr. Jeffrey. I tried twice to answer that a little earlier, 
Congressman----
    Mr. Yoho. I am sorry, I----
    Mr. Jeffrey [continuing]. Once badly, and then, I corrected 
myself. So, I will be careful here.
    Mr. Yoho. Let me hear the ``goodly'' one.
    Mr. Jeffrey. A political solution is highly unlikely with a 
government acting the way the current Assad government acts. 
Whatever it takes--well, whatever political process and 
diplomatic process is necessary to get that government to 
behave differently toward its own population and to its 
neighbors, that is an absolutely essential precondition for a 
resolution of this conflict.
    Mr. Yoho. Is there anyone in the batting cage, so to speak, 
that is ready and willing to take over? And I know we were 
talking about free and fair elections. But, with the players, 
as you pointed out in your testimony when I read it, Russia, 
Iran, Turkey, the Israelis--I am not so much worried about them 
or us--and I think you have got to throw ISIS in there still 
behind the scenes. Is it possible to have free and fair 
elections to where somebody could stand up that would be the 
future ruler of that country that would put the Syrian people 
and the country of Syria first?
    Mr. Jeffrey. First of all, physically--and it gets back to 
our defense of what we are doing now with the Idlib thing and 
74 kilometers--three weeks ago, there was essentially no 
fighting anywhere in Syria and only a few terrorist attacks. 
So, by the standards of the low standard of that part of the 
world, you have an environment that would allow free and fair 
elections in most places, certainly compared to what I saw in 
Iraq in 2005.
    In terms of could it be carried out, the U.N. is ready. The 
U.S. is good at this. The U.N. certainly can carry it out among 
the half the population that is not under Assad's control. And 
doing it under those areas in Assad's control is part of the 
art of the negotiation, to try to get the Syrian government to 
agree.
    Mr. Yoho. I guess my concerns are, one of the questions 
that I had was, when you look at when Syria was supposed to get 
rid of their chemicals of mass destruction, and John Kerry 
worked that deal out with the Russians, claimed they were all 
gone, but we know they are not. And Russia was supposed to be 
the guarantor that they were gone. Yet, Russia backs Assad and 
they are still being used, and this Administration is going to 
have to make a decision, if the report that came out that they 
are still using them, of what we are going to do. With people 
like Russia in there and Iran, the last thing they want is a 
democracy in that area because it weakens their form of 
government. And if you have players like Russia, who is a 
member of the U.N.--that is supposed to be part of the Security 
Council that is supposed to enforce these things--and we see 
over and over again, if we just look at North Korea, they voted 
with the sanctions. They do not enforce the sanctions. And so, 
they work against the resolve of the problem.
    And so, as long as Russia is there and/or Iran, I do not 
see a peaceful solution coming out that is favoring stability. 
I do not see anybody willing to stand up. And so, I see a 
drawn-out conflict. And I think more importantly to me is, if 
we look at the Western Hemisphere--and I know that is not what 
this meeting is about--but I have those same players in 
Venezuela. And then, you throw in the Cubans, and they are 
propping up a Maduro like they did Assad because it worked in 
Syria. There was no way Assad was going to be able to stay in 
power with the atrocities. Over 10 million people have left, 
run out of that country out of fear, and over a half million 
have been murdered.
    And there has got to be a better solution to this. I wish 
the U.N. had more bite in them to where we could come together 
and say let's bring an end to this. Any thoughts on that, a 
better way of doing this?
    Mr. Jeffrey. In a nutshell, on Syria, the U.N. has been a 
good, objective, and competent interlocutory, the OPCW, on not 
only documenting the use of chemical weapons, but increasingly 
reporting on who, mainly the regime, has used them. And again, 
the U.N. Special Envoys, the current and the predecessors, have 
been very balanced.
    The teeth of the U.N. is something that the international 
community has to give to the United Nations, and that varies 
from issue to issue. On this one, the international community 
is about as united behind the U.N. for fixing Syria as I have 
seen on any issue. But the problem, again, is getting Russia to 
go along because Russia can block any progress in the Security 
Council.
    Mr. Yoho. Sure. Yes.
    Mr. Chairman, thank you. Thank you for your time.
    Mr. Sherman. Now I will recognize the gentleman from 
Minnesota.
    Mr. Phillips. Thank you, Mr. Chair.
    And thank you, Mr. Ambassador. Your career and dedication 
to service to our Country is remarkable. And as someone who 
lost his father in Vietnam in 1969, I am particularly grateful 
to you. So, thank you.
    My first question is retrospective. And I would like to 
hear your thoughts on what we should have done, what we could 
have done, to alleviate the conditions that have led to this 
humanitarian disaster in Syria.
    Mr. Jeffrey. My focus, of course, is on looking forward.
    Mr. Phillips. As is mine.
    Mr. Jeffrey. And what I try to do is to draw lessons from 
this and try to be as apolitical in doing them as I can, 
because I deal with different audiences with different 
backgrounds.
    The first one is America needs to play a leadership role as 
soon as possible. With a few delays, we got it with the defeat 
of ISIS. We mentioned Brett McGurk's work. And previously here, 
he was the first in the Obama Administration to get it, and you 
saw a quite effective, coherent, internationally well-supported 
campaign, backed by the Congress, that did at least the initial 
job of defeating the caliphate.
    We have not had that same consistency, that same unity on 
the Syrian problem since 2011. We are trying to put it together 
now. That is why we are working with you. We are working with 
the international community. And again, I think we are making 
progress.
    Mr. Phillips. OK. Moving to the here and now, I would love 
a concrete example or examples of how our policy has been 
successful so far, and especially anything you may not have 
mentioned yet. Concrete examples.
    Mr. Jeffrey. Yes, I have been trying as hard as I have for 
the last hour to give you every single one I could think of, 
but I----
    Mr. Phillips. Anything you missed?
    Mr. Jeffrey. I will start off with repeating myself. The 
battle lines have been basically frozen since last year, almost 
a year now. That was not the case before. And that underlines 
the argument, which even the Russians say, that there is no 
military solution. We were hearing that, those words, and then, 
we are hearing the thunder of guns and barrel bombs, indicating 
that Assad did think there was a military solution. He may 
still think there is a military solution, but we in the 
international community are doing everything we can to make it 
clear that there is not. That is the first and most important 
thing.
    Second, we have managed to maintain this international 
coalition. At the end of March, the Arab League met. There was 
a major effort by Assad and its friend to allow the Assad 
regime to come back into the Arab League, where it was thrown 
out at the beginning of the conflict. They got nowhere. That 
was an example of diplomacy, beginning with our Arab League 
friends who did a really great job leading that effort, but 
that was supported by the rest of us.
    Now the European Union has passed very, very tough 
sanctions. We heard one example of them on a notorious ally of 
Assad's, Mr. Foz, the owner of the Four Seasons. In that 
regard, they are even ahead of us. So, that is another example 
of concrete.
    I could go on. There is a lot of concrete examples.
    Mr. Phillips. OK. My next question is, is the DoD 
collaborating with State and USAID to fulfill our strategic 
objectives in any meaningful ways?
    Mr. Jeffrey. As well or better than in any other of the 
conflicts I have been involved with.
    Mr. Phillips. OK.
    Mr. Jeffrey. Acting Secretary Shanahan and the Secretary 
coordinate several times a week along with John Bolton. I have 
a dialog particularly on the safe zone with General Dunford. 
And the CENTCOM Commander, first General Votel and now General 
McKinsey, speaks with us all of the time, yes.
    Mr. Phillips. OK. And now, prospectively, in light of this 
experience, where should we be turning our attention, and in 
what manner, to circumstances perhaps in the Middle East or 
elsewhere that have similarities that we can prevent?
    Mr. Jeffrey. More generally, you have two basic forces in 
the Middle East. At the 100,000-foot level, that is what is 
going on in Syria. You have an American-led collective security 
system that is based primarily on the States of the region, 
preserving both our interests, anti-terror, anti-WMD, flow of 
oil, allies and partners. And you, then, have forces for one 
another region who want to overthrow that order and establish 
something like, in Iran's case, hegemony; in the case of the 
Russians, a return to the 19th century. A half dozen powerful 
countries--Israel, Turkey, Russia, America, Iran, Saudi 
Arabia--run the place and go back and forth, and everybody else 
gets what they can.
    We are very strongly supporting this idea of a collective 
security system, led by the people of the region. That was the 
logic of the President's Riyadh speech 2 years ago, but with 
American leadership and American basically skin in the game, 
and that is what we have now.
    Mr. Phillips. All right. Thank you, Mr. Ambassador.
    I yield back.
    Mr. Sherman. The gentleman from Kansas is recognized.
    Mr. Watkins. Thank you.
    Mr. Ambassador, thank you, sir. Hi.
    Turkey, what are Turkey's objectives with respect to Syria, 
and how strong is our dialog with Turkey to coordinate our 
objectives compared to their objectives?
    Mr. Jeffrey. Turkey's objective, like all of the countries 
directly involved on the borders of Syria, is to survive the 
horrific Syrian civil war. Turkey has been impacted, beginning 
with 3.5 million refugees, where Turkey has spent many tens of 
billions of dollars doing, by all standards, a commendable job 
taking care of these people that it has welcomed into its 
midst.
    Second, Turkey has a whole series of threats emanating 
from, or potentially emanating from, Syria. I have discussed 
the threat of a second Qandil Mountains, were the PKK to 
establish an offensive capability out of northeastern Syria or 
elsewhere in Syria, for that matter.
    Second, Turkey has a very strong enmity with the Assad 
regime that goes back to the beginning of this conflict. And 
Turkey has a traditional--we are talking about many hundreds of 
years--rivalry with Iran for power within the northern Middle 
East. And Turkey is generally not very happy with Russian moves 
to itself.
    So, Turkey has to deal with all of these things, and it 
deals with them in a variety of ways, using military presence 
in the northwest, using negotiations with us on the 
northeastern safe zone, negotiating with Russia, while also--
and we see this in Idlib--essentially, reinforcing its 
positions. Turkey has troops in Idlib, not pulling them back, 
even though some of them have been wounded by Syrian regime 
fire, and generally, pushing back to what the Russians and the 
Syrians are trying to do, while at the same time negotiating 
with the Russians and Iranians in the Astana process to try to 
end the conflict.
    Generally, Turkey supports the opposition, as do we. 
Generally, Turkey is trying to change the behavior of the 
Syrian government. We agree with it as well there. So, all in 
all, we coordinate with it.
    President Trump has had multiple phone calls with President 
Erdogan. I accompanied Secretary Pompeo when we met with 
President Erdogan in Ankara back in the fall, and we have 
contacts almost monthly at the foreign minister level and at my 
level with our Turkish counterparts.
    Mr. Watkins. Thank you.
    Obviously, we know that the Assad regime is backed by Iran. 
How is our recent show of force--I am talking in terms of the 
USS Abraham Lincoln, prepositioning B-52 bombers, a couple I 
believe in the area, a couple more--how does that change the 
balance of power? How does that influence the situation?
    Mr. Jeffrey. I cannot talk about the military balance of 
power by adding up airplanes and weapons loads, and that kind 
of thing. I can say that, diplomatically, every time we take a 
step like that, it tends to reassure our partners, and that is 
what much of my focus is on, is our partners and how our 
partners evaluate what we are trying to do. So that moves like 
this are generally well regarded by the vast majority of 
countries in the Middle East because the vast majority of 
countries in the Middle East are our allies and partners.
    In terms of Iran's perception, we are still sorting this 
out. Acting Secretary Shanahan and Secretary Pompeo were up 
here yesterday going through this in great detail. They know 
better than I.
    From the standpoint of Syria, anytime the United States 
shows a willingness, as we did, because this was clearly just 
retaliatory--this was not preparations for a military conflict, 
and I think the two Secretaries made that clear--this tends to 
make the other side think twice before it acts in an aggressive 
fashion toward us or toward our partners, and that is a good 
thing.
    Mr. Watkins. Thank you, Mr. Ambassador.
    I yield my time, Mr. Chairman.
    Mr. Sherman. The chair recognizes the gentleman from 
California.
    Mr. Lieu. Thank you, Mr. Chairman.
    Thank you, Ambassador Jeffrey, for your long career of 
public service in both Republican and Democratic 
Administrations.
    As we all know, the President launched cruise missiles into 
Syria, and he did that because Assad used chemical weapons on 
civilians, and that is a heinous war crime, is not that right?
    Mr. Jeffrey. That is correct.
    Mr. Lieu. And the U.S. takes very seriously war crimes, 
whether committed by our adversaries or even our allies, is not 
that right?
    Mr. Jeffrey. I will limit myself to we certainly took that 
particular war crime very seriously.
    Mr. Lieu. You served in the U.S. Army and you were taught 
to obey the Law of Armed Conflict, also known as the law of 
war, correct?
    Mr. Jeffrey. Of course.
    Mr. Lieu. All right. And so, the U.S. goes to great lengths 
to make sure that even our own personnel do not engage in war 
crimes, is not that right?
    Mr. Jeffrey. That is what I was trained to do, and that is 
what I did on the battlefield.
    Mr. Lieu. And the reason we do that is not because it is 
just a moral thing to do; it is because if we start engaging in 
war crimes and violating the Law of Armed Conflict, it not only 
invites retaliation by our adversaries, it also is a great 
recruiting tool for terrorists. That would be correct, right?
    Mr. Jeffrey. I am trying to see where you are going, 
Congressman, but I have to agree with everything you have said.
    Mr. Lieu. Yes. Thank you.
    So, earlier this year, Army First Lieutenant Michael 
Behenna was pardoned by Donald Trump. He was convicted of war 
crimes. He was convicted by a military jury for driving an 
unarmed Iraqi prisoner into the desert, stripping him naked, 
and shooting him in the head and chest. Do you think it was 
appropriate for the President to do that?
    Mr. Jeffrey. I do not see a conflict between the pardoning 
of people who have been convicted of crimes, regardless of the 
crimes, and the underlying legal and moral issues.
    Mr. Lieu. Public reporting is that the President is 
thinking about pardoning additional people who are charged with 
war crimes. One of them is Navy SEAL Chief Edward Gallagher. He 
was charged with killing, murdering an unarmed civilian girl, 
murdering an unarmed old man, stabbing a defenseless teenage 
captive, and then, indiscriminately shooting machine gun fire 
into a neighborhood. What kind of message does it send to our 
adversaries if they know that the President is going to pardon 
people who committed war crimes or are charged with war crimes?
    Mr. Jeffrey. Again, pardoning is a legal and constitutional 
authority granted to the President. The President is elected by 
the American people, and the President takes decisions----
    Mr. Lieu. Yes, I get that, sir. I am just asking you the 
message that is going to be sent.
    Mr. Jeffrey. I would decline to comment further on that.
    Mr. Lieu. All right. Republican Congress Member Dan 
Crenshaw has stated that he believes, as I do, that a military 
jury should first decide whether Chief Gallagher has engaged in 
these war crimes. In fact, seven Navy SEALs reported him to 
Navy authorities because of his alleged heinous acts. Do you 
believe that a military jury should have the first opportunity 
to look at the evidence in this case before the President 
pardons him?
    Mr. Jeffrey. Again, this is not my area of expertise, nor 
what I am here to talk about today. But I will say that it is 
my belief that we should adhere to our constitutional legal 
procedures and processes in each and every case as a general 
rule.
    Mr. Lieu. Right. So, let me move on to the troops we have 
in Syria. How many troops do we have in Syria?
    Mr. Jeffrey. I cannot comment on that. First of all, it is 
a moving target, and second, we are in the process of a 
reduction. It is considerably fewer than we had in December 
when the initial announcement was made.
    Mr. Lieu. It is less than a thousand, correct?
    Mr. Jeffrey. I am not going to get into numbers.
    Mr. Lieu. OK. Donald Trump said he is going to withdraw 
2,000 troops from Syria. So, it is less than 2,000, correct?
    Mr. Jeffrey. It certainly has dropped from where it was 
when it began. I am trying to dance around this without giving 
a specific number.
    Mr. Lieu. Right. OK.
    Mr. Jeffrey. But you know what I am trying to say.
    Mr. Lieu. What is the mission of our troops?
    Mr. Jeffrey. The mission of our troops is to ensure the 
enduring defeat of ISIS and to maintain in that process 
stability and security in the northeast and in the----
    Mr. Lieu. And our troops are deployed in combat zones in 
Syria?
    Mr. Jeffrey. Yes, they are drawing combat pay.
    Mr. Lieu. And so, you mentioned ISIS. So, there is still 
ISIS in Syria?
    Mr. Jeffrey. Absolutely, thousands of them.
    Mr. Lieu. OK. All right. So, when Donald Trump said, on 
February 22d, that ISIS is 100 percent defeated, that was not 
true, right?
    Mr. Jeffrey. No, that was true. What he was talking about 
what the ISIS caliphate which was defeated along the 
Euphrates----
    Mr. Lieu. That was not what he was talking about. He was 
saying he was withdrawing all U.S. troops from Syria because 
ISIS has been 100 percent defeated in Syria. You can say what 
you think he meant, but he clearly said we are withdrawing all 
our troops. What you are saying now is, no, no, no, we have our 
troops there because ISIS is still not defeated. So, I just 
want to know.
    Mr. Jeffrey. He talked about a gradual, I believe it was 
coordinated and deliberate drawdown----
    Mr. Lieu. All right.
    Mr. Jeffrey [continuing]. But with some residual troops.
    Mr. Lieu. So, we can all read his tweets and see what he 
said. But let me just ask you this last question. What is the 
authorization for military force that the Administration is 
using to have our troops deployed in combat zones in Syria 
without any congressional action?
    And I yield back.
    Mr. Jeffrey. It is a congressional action based upon the 
2001 authorization for the use of military force. Further, by 
the appeal to the U.N. under Article 51 of the U.N. Charter by 
the State of Iraq in 2014 for assistance and help from its 
partners, one of whom under the Strategic Framework agreement, 
the U.S. is; a memorandum of understanding written at that time 
between the two governments, and U.S. engagement on the ground, 
first, in Iraq, and then, because the threat to Iraq was coming 
across the border from ungoverned areas of Syria into the 
Syria. That is the basis for the authorization, Congressman.
    Mr. Sherman. The time of the gentleman has expired.
    I think the Founding Fathers would find it absurd to think 
that an action by the United Nations could shift powers from 
Article 1 to Article 2 of the U.S. Constitution.
    I recognize the gentlewoman from Pennsylvania.
    Ms. Houlahan. Thank you, Mr. Chair.
    And thank you very much for coming today.
    My questions largely have to do with the displaced 
populations in Syria. Countries throughout the region have 
shouldered the brunt of the Syrian conflict and have absorbed 
more than 5 million refugees. And that, obviously, puts 
enormous economic pressure and strain on these countries 
politically as well. I am just wondering, what is the U.S. 
doing to support those communities that are hosting all of 
these refugees, particularly to reduce tension and ensure that 
the refugees are not pushed back into the country prematurely?
    Mr. Jeffrey. Thank you.
    This is a major, major effort on our part. I talked about 
the $9.5 or almost $10 billion that we have provided, leading--
--
    Ms. Houlahan. I am sorry, was it million or billion?
    Mr. Jeffrey. Billion. I am sorry. Billion dollars, leading 
the international community.
    Second, we watch very closely--I cannot get into the 
diplomatic discussions or I would say more debates or disputes 
we have--to ensure exactly that; that nobody is pushed back 
against his or her will into the arms of that awful regime.
    And the regime itself and some of its supporters have been 
trying to do that. There were at times plans for an 
international conference to encourage people to return and 
encourage States to have their people return. Our position is 
people have to decide themselves. It has to be voluntary. It 
has to be dignified. It has to be safe. And either the U.N. 
organs or other international agencies have to provide 
information on where they would be going back to. We have a 
whole series of criteria. And I can assure you, of the various 
things we do at varying levels of competence and 
aggressiveness, this is pretty high.
    Ms. Houlahan. So, you cannot provide any examples or detail 
on how we are, in fact, making sure that those folks are able 
to stay?
    Mr. Jeffrey. That would require criticizing countries with 
whom we have friendly and close relationships, and would abuse 
the trust they have in us. I will say that we have very tough 
conversations with a number of countries, and so far, they have 
recognized not only our interest, but their obligations under 
various U.N. and other international treaties and humanitarian 
provisions.
    Ms. Houlahan. Are you able to elaborate at all on what we 
are doing specifically for women and children refugees in that 
region?
    Mr. Jeffrey. The programs that we have, that is, the almost 
$10 billion--and we can get the specific information to you--
has very specific provisions, very specific programs, for 
women, children, people who have health problems, and that sort 
of thing. That is simply part of the system that we and our 
agencies and partners who actually deliver the aid set up for 
us.
    Ms. Houlahan. I would love to have that further 
information----
    Mr. Jeffrey. Sure.
    Ms. Houlahan [continuing]. If that would be possible.
    Mr. Jeffrey. OK.
    Ms. Houlahan. And my second question has to do with the 
humanitarian issues as well, and the fact that, effectively, 
the President's 2020 zeroed-out the economic support and 
development for this area. A hundred and thirty million was 
originally in Fiscal Year 1919; now nothing. How do you request 
cutoff and reconcile that with asking people in other parts of 
the world to support this really important area? And who else 
do you think will pay for that?
    Mr. Jeffrey. As one of the people who goes out and does 
that, I have no moral, political, or diplomatic pangs of 
conscienceness doing, and I will tell you why. Think of what we 
have done in this conflict. Ten billion dollars of humanitarian 
aid, and that money, thanks to you as much as it is to the 
Administration, is continuing to flow. Diplomatic leadership of 
this conflict, of the efforts at least to end this conflict, 
and our military action and presence to defeat ISIS in the 
Iraq-Syria area, those are all major steps that we have made.
    What the Administration is saying is, as we have with the 
troop drawdown in northeast Syria, as we do with stabilization 
funds, is, cannot somebody else step up and do at least some of 
this? We are only 17 percent of the world's economy. And so, 
why do not others? And in fact, others do. Germany, Saudi 
Arabia, the UK, and the United Arab Emirates provided over $300 
million of stabilization funding in 2018 for the northeast. We 
just had a stabilization conference----
    Ms. Houlahan. So, just to be clear, you said you do not 
have any moral hesitation to zero-out that line item?
    Mr. Jeffrey. I have no moral hesitation in asking other 
countries to do more and the American public to do less.
    Ms. Houlahan. And us to do nothing?
    Mr. Jeffrey. I absolutely do not.
    Ms. Houlahan. And how would you ask other people to do that 
if we are, in fact, the leaders of the world? And here in this 
committee, in this hearing, we have heard that over and over 
again. When we leave, we have created a vacuum. We are the 
leaders, the beacon on the hill, you know, the shining light. 
That we go to zero and expect that we are going to find it from 
other people, I just do not understand how we can be the moral 
leaders of the world.
    Mr. Jeffrey. I think it is not difficult because we are not 
going to zero in the Syrian conflict. We are still, again, by 
far, the largest contributor to the most important funds 
program, which is humanitarian assistance. That is a separate 
category than stabilization funds. We are No. 1 in terms of the 
military effort we have made in Syria and in Iraq for the 
defeat of ISIS, and everybody knows that and nobody else could 
have done that. Frankly, other countries could have come up 
with the $10 billion, but nobody could have come up with the 
military effort.
    So, in this one area, this Administration has said, cannot 
others provide a few hundred million dollars for stabilization? 
It is a good question, and they area.
    Ms. Houlahan. I am sorry that I have run out of time, but I 
do believe that it is a real question for what the message is 
that we are sending to the world, and specifically to our 
allies, when we do things such as this.
    And I appreciate your time, sir.
    And I yield back.
    Mr. Sherman. The gentlelady's time has expired. The 
gentleman from Massachusetts is recognized.
    Mr. Keating. Thank you, Mr. Chair.
    And thank you, Ambassador, for your service as always.
    We talked on the importance of working with our European 
allies in terms of the military part of this, in terms of the 
intelligence, which is extraordinary. But, on February 16th, 
President Trump just tweeted out a message saying, you know, to 
Britain and France and Germany, and other European allies: take 
back your 800 ISIS fighters that we captured in Syria and put 
them on trial. The caliphate is ready to fall. The alternative 
is not a good one, and that will be forced to release them.
    Now I happened to be in Europe at that time. And I have got 
to tell you, when this tweet came out, our CODEL, including the 
Speaker, was just deluged with the press as we were going 
meeting with leaders. And inside those meeting rooms, there was 
enormous concern from the State and diplomatic side that this 
is how they are getting this message and what that was doing to 
alarm the people that they serve in their regions, in their 
countries, in their districts.
    You are a person well-qualified to really stress the 
importance of having the proper communication and how damaging 
something like a tweet without any foundation laid for 
anything, how that can alarm people. They serve constituents 
the way we do as elected officials. I saw it firsthand. This 
had a real effect and creates a greater divide with the people 
we count on the most. Can you stress the importance of making 
sure that this kind of thing does not happen again?
    Mr. Jeffrey. Every President decides how he or she will 
communicate both to the American public and to allies, 
partners, and adversaries. On that particular issue, I can 
issue you that well before that tweet, we had made our position 
abundantly clear, that these countries should do essentially 
what the tweet said. And we also have, in the case of a certain 
number of Americans who are in that category, we have taken 
them back and----
    Mr. Keating. Then, the gap exists somewhere, because I was 
dealing with foreign ministers, Ambassadors, and that is who we 
were meeting with at that time. And their reaction was shock. 
So, wherever the gap is, I guess we should all work to improve 
it.
    The second question I had was, when President Trump had a 
telephone conversation with President Erdogan, and in that 
conversation he said, he communicated to him he was going to 
pull out U.S. troops in Syria immediately, what I noticed 
during that period is this: President Erdogan and Turkey were 
extremely active at the time publicly talking about the need to 
get to the bottom and investigate and have information about 
the murder of Jamal Khashoggi. Now coincidence? Ever since that 
happened, I have noticed Turkey has gone so silent on that 
issue. Now was there any discussion in that conversation about 
the Khashoggi investigation at all by the President?
    Mr. Jeffrey. My understanding--of course, I was not on that 
call--was that the conversation was about the security 
situation in Syria. I follow Turkish politics fairly closely 
because of the negotiations we are doing. And I can assure you 
that the Khashoggi case is raised at various levels all the 
time from Erdogan in his public statements on down. It remains 
a very important issue for the Turks.
    Mr. Keating. Yes. Last, you did talk about the issue of a 
security zone with Turkey, and the fact that we are in 
discussions about that and part of that. And one of the things 
I just want to get a sense of, too, is, aside from recognizing 
the need or the discussion or the importance from Turkey's side 
on that, what things can we do from a concrete nature? And are 
we building the ability of having something concrete about how 
we can protect the YPG in that region, how we can protect the 
Kurds in that region as part of that? I know we were talking 
about the other issues that you mentioned, but is there 
affirmatively something in discussion that you can talk about 
where we will make them more secure?
    Mr. Jeffrey. At the end of the day, it starts with, first 
of all, accepting the territorial integrity and the unity of 
Syria. Second, a political process that sees every Syrian 
citizen having the same sort of rights and obligations that we 
take as normal here and elsewhere around the world.
    The example I would give--and people just sometimes shrug 
and say, ``Well, but this is a special part of the world. Well, 
Iraq is right next door.'' And we had very close allies and 
partners, the PUK and the KDP Kurds in the north, and the 
Supreme Council for the Islamic Revolution in the south, in 
that period running up to 2003. We did not give them a lifetime 
guarantee that we would take care of them. What we said was we 
will work with you to create an Iraq that is democratic, that 
has rule of law, and that is secure.
    Now, with some problems, but still, all in all, this is 
what we have delivered. We have not maintained a special 
guarantor status over internal groups in countries. That would 
not be in the long run appropriate for us or appropriate to ask 
the American people to bear. What we do, however, do is to aim 
for solutions where countries are able to provide that security 
for their own people inside recognized borders. That is what we 
are doing in Syria.
    Mr. Keating. Well, thank you, Ambassador, and thank you for 
your service here. And thank you for coming in front of this 
committee and communicating the way you have in the past and 
you currently do. That is so important.
    I yield back.
    Mr. Sherman. The gentleman from Rhode Island is recognized.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Mr. Ambassador, for being here.
    First, I want to ask you, with respect to, since March 
2011, over 11 million Syrians have been displaced from their 
homes and more than 470,000 have been killed. After 8 years, 
the Assad regime has consolidated its control over a majority 
of the country and showed little sign of political reform or a 
willingness to implement any of the conditions stipulated in 
the U.N. Security Council Resolution 2254, calling for a cease-
fire, a political settlement, safe and voluntary return of all 
refugees, and a number of other conditions.
    It is not clear to me what our strategy is in Syria and 
what our objectives are, what are the strategies to achieve 
those objectives. But I am particularly interested to know how 
the withdrawal of U.S. troops from Syria and the withdrawal of 
U.S. assistance from Syria advances whatever the goals are. So, 
if you could say what the goals are and how does the withdrawal 
of troops and the withdrawal of assistance advance those goals?
    Mr. Jeffrey. Yes, again, I will back into this, beginning 
with your final question, and then, get to the larger strategic 
one quickly. We are maintaining a residual U.S. presence, but, 
more importantly, we are maintaining a coalition overall 
presence in the northeast which has an air component which was 
always going to continue to be an American-led and largely 
American-supported air component, and a ground component to 
continue the enduring defeat of ISIS and stabilization, with a 
residual U.S. component and a larger coalition component.
    And finally, we are working with the international 
community to provide stabilization funds. We got $325 million 
last year. We have pledges right now of somewhere between $140 
and $180 million, and we are looking for other ways to fill the 
gap to probably $300 million more this year.
    So, we are not abandoning anything. We are shifting the 
focus from an exclusively American-funded, American boots on 
the ground, or largely American boots on the ground, to a more 
balanced. And there is nothing wrong with that as national 
policy. That is burden-sharing. Every Administration for 
decades has pursued it.
    In terms of the overall strategy, very basically, as I 
indicated earlier, a step-by-step implementation of the cease-
fire, demilitarization, and political process under the U.N. 
control or the U.N. aegis as the facilitator under 2254, which 
everybody, including Russia, agreed to, or until we can 
convince everybody--and it is hard to convince Assad to do 
this--then, we will continue the maximum pressure campaign that 
is diplomatic and economic and financial.
    Mr. Cicilline. Thank you, Mr. Ambassador.
    You mentioned our effort to defeat ISIS, and I think you 
will agree the most important U.S. ally in Syria has been the 
Syrian Democratic Forces, which has been fighting ISIS with 
some success. Their region includes Afrin, a city that has seen 
horrific human rights abuses committed by Turkish-backed forces 
and the Turkish military itself. Turkey is still occupying 
Afrin and over 250,000 people have been displaced.
    And so, I really have two questions. How do you propose the 
U.S. Government promote peace negotiations between the SDF and 
Turkey when Turkey is still occupying Afrin? And you also 
mentioned in your earlier testimony that you would propose the 
creating of a safe zone, but that would require the YPG to 
leave the area. And I wonder, how is that possibly to be 
executed? Like under what circumstances is that even 
conceivable?
    Mr. Jeffrey. I think it is conceivable to have a drawback 
of forces. I have seen it in a half dozen conflicts. It is a 
drawback of forces. It is something that is--we did this after 
1973 in the Sinai. There is all kinds of examples of us drawing 
back forces. We pulled our own forces, for example, back from 
the Demilitarized Zone in Korea at a certain point. These are 
basically tools of the trade.
    We are not trying to negotiate any peace agreement between 
Turkey and anybody. What we are trying to do is to set up a 
safe zone, so that everybody feels secure enough to continue 
doing our common efforts to defeat ISIS and find a solution to 
Syria.
    Mr. Cicilline. And my final question, Mr. Ambassador: the 
congressionally mandated, bipartisan Syria Study Group 
recommends stopping the drawdown of U.S. troops from Syria, 
passing and signing into law the Caesar Syria Civilian 
Protection Act, resuming U.S. assistance to Syria, and resuming 
the presence of Syria transition assistance response teams, 
forward teams to assist professionals in northern Syria who are 
implementing programs sought to hold territory formally held by 
ISIS. Do you support these recommendations? And if so, why? If 
not, why not?
    Mr. Jeffrey. I would have to review the whole report. I, 
and many others, of course, have met with the members of the 
commission. I would say we certainly support getting our START 
teams back on the ground, and we are working on that right now. 
Those are the people who provide the assistance.
    We certainly support a robust stabilization program in 
northeast Syria. We just think that for the moment it would be 
a good idea if others would provide that funding, given that we 
have asked the American people for $10 billion, almost, in 
support for refugees and IDPs.
    And as you know, we have every intention of keeping a 
coalition military presence on to defeat ISIS, which would 
include some form of residual U.S. force. So, I think that we 
are meeting the spirit of that recommendation as well. So, 
while there is some--again, I would have to look at the details 
of their recommendation. I think that we may be pursuing 
slightly different tactics, but, all in all, their overall 
objectives are ones that we are probably pretty much consistent 
with.
    Mr. Cicilline. Thank you, Mr. Ambassador.
    I yield back, Mr. Chairman.
    Chairman Engel [presiding]. Thank you, Mr. Cicilline.
    Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman.
    And thank you, sir, for being here.
    There have been several reports that Iran is utilizing 
their soft power in Syria. And by that, I mean Iran is building 
Shiite meeting halls, mosques, and schools to replace Sunni 
communities with people who are friendly to the Assad regime 
and to Iran. Do you like that is reversible?
    Mr. Jeffrey. First of all, we have seen similar reports. 
Most anything in this world, Congressman, if you have enough 
time and effort, is reversible, other than death. But I think 
that----
    Mr. Burchett. Are you meaning money? Or time and effort, 
does that equal money? I am not sure.
    Mr. Jeffrey. All of the above.
    Mr. Burchett. Yes, sir.
    Mr. Jeffrey. I think that this is a really big problem. I 
think it is a problem not only for us, which it is, and for 
Syria's neighbors, beginning with Israel, but this is a problem 
for Assad regime and for the Russians. It is one of the areas 
where we warn everybody, ``Watch what you are getting in this 
country.''
    Mr. Burchett. OK. Do you think there is something that the 
State Department can do or they can implement to deter and 
impede Iran's goal of winning, as they say, the hearts and 
minds of the Syrian people?
    Mr. Jeffrey. First of all, we have various programs for 
those people who have fled Assad. And we have very close 
relations with the political opposition, headquartered in 
Riyadh, with the groups in Turkey, Cairo, and Moscow. And we 
maintain contacts with all sorts of Syrians. We have a lot of 
people doing that. And we have various, both in the context of 
the enduring defeat of ISIS, but also in terms of our overall 
policies toward Syria, we have various outreach, public 
outreach, measures. We could always do more, though.
    Mr. Burchett. You said, ``public outreach''. I am curious, 
what does that mean?
    Mr. Jeffrey. Working with the media. We have a center, for 
example, that responds to extremist Islamic propaganda 
throughout the Middle East. We have an operation in London that 
is specifically focused on countering ISIS propaganda. So, 
there are many such activities like this.
    Mr. Burchett. OK. Also, could you comment on the situation 
in the Sunni Arab areas under the control of the Syrian 
Democratic Forces, the SDF? And do the Sunnis resent living 
under SDF control? And if so, could this allow ISIS to stage a 
comeback?
    Mr. Jeffrey. There are tensions. We are watching that very 
closely.
    Mr. Burchett. OK. Thank you, Mr. Chairman. I yield back the 
remainder of my time.
    Chairman Engel. Thank you.
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Ambassador Jeffrey, thank you for your service. We are very 
fortunate to have you there.
    I do want to come back, though, to this question of 
stabilization funding. And I think we should start by being 
honest about the context. I think we all understand, though 
some of us may have to be more diplomatic about it, but at a 
certain point the President made a decision to pull us out of 
Syria entirely. There was significant bipartisan pushback, 
including in the Congress, which resulted, fortunately, in a 
decision to maintain at least some of our military presence in 
the country. But we are still entirely pulled out as far as our 
stabilization. We have not yet had the same decision that was 
made with respect to the military mission to resume our 
stabilization efforts.
    Now you said that you feel that at least some of this 
should be done by our allies. And, of course, all of us would 
agree. But let's just, to establish for the record, at this 
point we are doing none of this? All of this is being done by 
our allies, is that correct?
    Mr. Jeffrey. I would have to check. We put about almost a 
billion dollars of stabilization funding into Syria, and in the 
northeast, which is what we are talking about now, roughly $220 
million. I would have to, of course, go back and check. You 
know accounts in the Federal Government. We may be still 
spending money that is from 2016. But, basically, the bulk of 
our funding--and we are running low on it--is from the $325 
million that we received primarily from those four countries I 
named earlier.
    Mr. Malinowski. Sure.
    Mr. Jeffrey. But I have no--how should I say--diplomatic or 
moral or political problem with us deciding in a certain 
campaign, given our global presence and importance, of turning 
to our collective allies and partners whose GDP and total 
forces under arms are several times ours worldwide, and saying, 
in this area, we want you to do more for funding; we want you 
to do more to put boots on the ground.
    Mr. Malinowski. Yes, there is a difference--of course, we 
all want them to do more.
    Mr. Jeffrey. I know.
    Mr. Malinowski. But the point is we are not doing--yes, we 
are spending old money, but there is no new money. 
Stabilization funding was suspended. The START team pulled out 
in December, as I understand it. Is that correct?
    Mr. Jeffrey. We are trying to get it back in. They were 
pulled out not for financial, but for security reasons.
    Mr. Malinowski. OK. Well, that is good to know.
    A significant share of the foreign funding is provided by 
Saudi Arabia and the UAE. Do Saudi Arabia and the UAE have the 
same interests as ours in Syria?
    Mr. Jeffrey. They certainly do not put any conditions on 
their funding, other than that it be spent wisely. And their 
overall goals for Syria are very closely aligned to ours, and 
we have seen this in the Arab League decision on Syria not 
coming back, for example.
    Mr. Malinowski. Well, according to the OIG report on 
stabilization funding, ``Stabilization activities such as 
reconciliation, social cohesion, community dialog, and civil 
society capacity-building are not covered under the funding 
provided by Saudi Arabia and the UAE.'' So, of course, they are 
happy to fund bricks and mortar, but the things that we were 
doing, and that we are best at in terms of actually working 
with the Syrian people to build democratic governance; humane, 
human-rights-respecting; women-rights-respecting government, it 
does not seem like the Saudis are interested in that. Isn't 
there a significant cost to our interest in subcontracting 
stabilization to countries that do not share our values and 
interests?
    Mr. Jeffrey. As a general rule, you have a point, 
Congressman. That is, if you turn to other countries to provide 
the funding for a stabilization program, particularly as we 
still have the administrative structure, the START teams to do 
it, you are going to get a different perspective than ours. If 
you want to have the specific American goals supported, then 
that is an argument for providing some U.S. funding or finding 
other countries. For example, we have also turned to Germany 
and the UK. They have a very similar view of that kind of the 
usefulness, of the utility of that sort of program as we do. 
And that is where we are getting some of the funding for those 
programs.
    Mr. Malinowski. Well, good. And we have provided funding, 
as you know.
    Mr. Jeffrey. Right.
    Mr. Malinowski. In fact, we funded the Relief and Response 
Fund, which is specifically designed----
    Mr. Jeffrey. I know.
    Mr. Malinowski [continuing]. For post-ISIS stabilization. 
My understanding, at least as of April 5th, that not a single 
dollar of the $500 million that we provided in Fiscal Year or 
of the $200 million we provided in 2019 for this fund has been 
notified to Congress. That was explicitly tied to stabilization 
in Syria. Do you expect that is going to be notified sometime 
soon?
    Mr. Jeffrey. We are looking into that question.
    Mr. Malinowski. A diplomatic answer. Please----
    [Laughter.]
    Mr. Jeffrey. A correct answer.
    Mr. Malinowski. Well, we hope to see that soon because this 
was money that we specifically provided for this purpose, 
precisely because we agree with you that, if we want this 
program to be managed according to our interests and values, we 
should be funding some of it, even if we, of course, ask our 
allies to do more.
    Mr. Jeffrey. We will take that back, Congressman.
    Mr. Malinowski. Thank you, sir.
    Chairman Engel. Thank you.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, for your 
patience and for this important hearing.
    Mr. Ambassador, I remind you that we first met, I believe, 
in 2011----
    Mr. Jeffrey. Yes.
    Mr. Costa [continuing]. In a very interesting meeting with 
Prime Minister Maliki that we can talk about later.
    Mr. Jeffrey. Perhaps not. I remember that meeting.
    Mr. Costa. Right. No, so do I. Perhaps not.
    Thank you for your service to our country.
    And without being redundant--I had to depart for another 
hearing when one of our colleagues was talking about what a 
mess we have in Syria and how you inherited this mess. Without 
being redundant, I guess my view of Syria is that it is a 
series of proxy wars that are taking place concurrently. And we 
know that that has occurred throughout the history of mankind. 
One could, you know, say that there is maybe as many as four 
proxy wars that are taking place there concurrently.
    And as we look for a way out of this conundrum, and the 
difficult job that you have, I believe that nations ultimately 
do what they believe is in their own interest. So, can you 
describe it in this way to me: what are the threads of your 
efforts that lead you to believe that there are some concurring 
interests among the nations that are most interested there; 
i.e., Russia, of course Syria that is engaged in the civil war, 
Israel, Iran, and other Sunni nation States that lead us to 
figure out a way out of this conundrum? What are the concurring 
interests?
    Mr. Jeffrey. Thank you for raising this.
    Since I was a teenager during the Vietnam era, this 
question has come up of our role in the world. And I would use 
a reverse argument. If we do not play the kind of very costly 
and at times very difficult role that we play in the world, 
then you get a Syria; you get a law of the jungle in a very 
important area where you do have, as I said, five armies.
    Mr. Costa. Right.
    Mr. Jeffrey. And I think your characterization of four wars 
within a war is absolutely accurate. That is, you get chaos and 
a degenerating global system. Therefore----
    Mr. Costa. Those are under the categories of lessons to be 
learned.
    Mr. Jeffrey. Right.
    Mr. Costa. Now where do we go?
    Mr. Jeffrey. Where do we go is we basically try to convince 
everybody that, if they all compromise and they all come 
together----
    Mr. Costa. And that would be in their interest, individual 
interest?
    Mr. Jeffrey. It would be in their interest, not just ours. 
You inventory--and we have done this--Russia's interests; even 
Iran's interests, such as they are, although their main problem 
is that they are a threat to the entire region----
    Mr. Costa. Right.
    Mr. Jeffrey [continuing]. And their interests are not 
compatible with ours, but certainly Turkey's, Saudi Arabia's, 
Israel's, Jordan's, Lebanon's, and then, we try to see if there 
is common ground, and there is. Everybody wants this war to 
end. Everybody wants refugees and IDPs to return, and everybody 
wants the fighting and this danger of an escalation to stop.
    So, we pursue on the basis of the U.N. resolution, which is 
pretty good as U.N. resolutions go----
    Mr. Costa. Yes.
    Mr. Jeffrey [continuing]. A peace process----
    Mr. Costa. And the U.N. is playing a very constructive 
role.
    Mr. Jeffrey. A very constructive role. We are very happy 
with the U.N. across the board on the Syrian portfolio. There 
are some complaints, but we have that with everybody.
    Unless we lay out a Course A, which is to try to pursue 
this U.N. process step by step--that is what we pitch to the 
Russians and pitch to others--or we will continue the economic 
and political-diplomatic pressure, and Assad will see 40 
percent of his territory being held by others, and he is going 
to have a hard time getting that back. That is our alternative 
strategy, if we----
    Mr. Costa. And does Assad kind of think that what the end 
game for him is, a retirement villa in someplace somewhere 
else?
    Mr. Jeffrey. He has shown little willingness to be flexible 
on any issue, and at the moment may be concluding that it is 
better to sit on a pile of rubble with half his population and 
60 percent of his country than to compromise. We are trying to 
convince him and his supporters that is wrong.
    Mr. Costa. And that cadre around him?
    Mr. Jeffrey. Yes.
    Mr. Costa. Which is critical.
    Mr. Jeffrey. It is critical.
    Mr. Costa. Yes. And so, Russia is being responsible thus 
far on this effort?
    Mr. Jeffrey. That is a broad adjective----
    Mr. Costa. It depends on the day you ask?
    Mr. Jeffrey. Russia is listening to us, and Russia is aware 
of the downsides of a policy of----
    Mr. Costa. How much resources a day are they expending----
    Mr. Jeffrey. It is relatively limited.
    Mr. Costa. OK.
    Mr. Jeffrey. It's a few thousand troops.
    Mr. Costa. So, it is something they can still afford?
    Mr. Jeffrey. Absolutely.
    Mr. Costa. It is not an Afghanistan?
    Mr. Jeffrey. It is not an Afghanistan in the 1980's, no.
    Mr. Costa. Yes. All right. Well, my time has expired, but 
continue the good work.
    Mr. Jeffrey. Thank you.
    Mr. Costa. And we will provide whatever support we can on 
our end because it is truly difficult, but it is something that 
there are lessons to learn from here. I hope we learned these 
lessons in the future. I was disappointed when President Obama 
designated a red line that we never followed through with, but 
I am not so sure that our policy these days is that clear, 
either.
    Mr. Jeffrey. It is to me.
    Mr. Costa. OK. Well, good. I feel better. I will go home 
and sleep better tonight. Thank you.
    My time has expired.
    Chairman Engel. Thank you.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    I am awfully reassured, Ambassador Jeffrey, that the policy 
is clear to you because some of your colleagues resigned over 
changes to the policy that either were not clear to them or 
made no sense to them; in fact, they saw as deleterious to our 
objectives in Syria. So, maybe you are the lone wolf. I do not 
know.
    But let me ask about one aspect of the policy. According to 
CENTCOM--and I am quoting from their report--``Absence 
sustained counterterrorism pressure, ISIS could likely resurge 
in Syria within 6 to 12 months. Even without holding territory, 
ISIS will likely seek to increase recruitment by exploiting 
popular discontent over the lack of infrastructure in areas 
affected by the conflict, per a recent Operation Inherent 
Resolve IG report.''
    Based on those two reports and others, it is clear that a 
robust stabilization effort seems to be key to prevent the 
reemergence of ISIS. But the Administration has frozen U.S. 
stabilization aid to Syria and has begun withdrawing forces 
that would be critical to enable such aid. How do we square 
that with our goal to prevent ISIS from resurging?
    Mr. Jeffrey. First of all, I agree with the CENTCOM 
assessment. ISIS is still there in the northeast and throughout 
Syria. What they are talking about is an expansion of ISIS 
influence, even if it does not hold territory, and it sees 
that, correctly, as a threat.
    In terms of our stabilization, again, we have stopped our 
stabilization funding, but we have reached out and last year 
received $325 million worth of stabilization funding from other 
countries, notably Saudi Arabia, the Emirates, Germany, and the 
UK, and others as well. And we are doing the same thing this 
year. We have pledges for Iraq and Syria of $450 million.
    Mr. Connolly. So, your view is others can do it; we do not 
need to?
    Mr. Jeffrey. Well, we are doing it, for example, in Iraq. 
We just pledged at the same stabilization conference $100 
million for Al Anbar Province alone. Again, this and the last 
Administration have put almost $10 billion for humanitarian 
assistance for Syrian refugees and IDPs. You know the military 
effort we have made in the defeat of ISIS. So, I would say, on 
the overall gamut of U.S. engagement in the Syrian conflict, we 
have made huge financial, military, and diplomatic efforts.
    Mr. Connolly. Well, I understand.
    Mr. Jeffrey. In these two areas, we want to get help.
    Mr. Connolly. I understand, but I am trying to understand 
this policy you support that is clear to you. So, our policy is 
we have done our part; we are not going to do more with respect 
to the stabilization fund?
    Mr. Jeffrey. Our policy is to see if, on this small area of 
the overall coalition effort, we can get others to take those 
small parts of it. As we saw with the President's decision in 
February when we could not, when we could not get the coalition 
to agree to replace all of our forces that we thought would be 
necessary in the northeast, the President decided to slow down 
the withdrawal and to consider a residual force. That is, we 
adjust based upon the response we are getting from our partners 
and allies all the time. But we consider stabilization of the 
northeast to be a vitally important effort to defeat ISIS in 
the long term and to provide security and stability in Syria. 
So, we will look at how we are doing in this effort to get 
foreign troops and foreign money.
    Mr. Connolly. So, let me ask this question, switching 
subjects, but following up on that: what is current U.S. policy 
with respect to our Kurdish allies who fought side by side with 
us, were trained by us, equipped by us, and actually had 
victories on the battlefield, unlike most other insurgents? 
Given Turkey's stated opposition to the continued nature of 
that relationship and to territorial occupation by the Kurds, 
what is U.S. policy with respect to the Kurds?
    Mr. Jeffrey. Well, the policy toward--it is not to the 
Kurds anyway. I mean, there are Kurds all over the Middle East.
    Mr. Connolly. I am talking about the fighters we have 
worked with----
    Mr. Jeffrey. Right. And----
    Mr. Connolly [continuing]. To help defeat ISIS.
    Mr. Jeffrey. And over half of them along Euphrates were 
Arab. It is a combined force, the SDF, and that is what we deal 
with. We deal with the SDF as a military partner in the fight 
against ISIS and the stabilization of the region. We do not 
have a political agenda with them other than we are in an area 
that they control administratively and militarily. And so, we 
have to have reasonable relationships with them, which we do, 
and we have a debt to them for having fought with us against 
ISIS. Those are two important things. But we do not have a 
political future that we offer for them. The political future 
we offer for them is a political future we offer for everybody 
in Syria, which is, under 2254, a democratic, peaceful 
government.
    Mr. Connolly. If I could just followup to clarify, 
Ambassador Jeffrey, so the Turks have insisted that, in 
territory, towns and parts of regions hard fought for and won 
by our Kurdish allies, coalition allies, that they need to 
vacate that land because it is too close to the Turkish border 
or else the Turks would militarily intervene. Does the United 
States have a point of view about that?
    Mr. Jeffrey. The point of view we have is that, first of 
all, we do not want anybody threatening Turkey, and there is a 
long history of Turkey not watching what happens on the other 
side of its border and being dramatically and existentially 
threatened since 1984. We take that into consideration. We also 
take into consideration, again, our debt to the SDF and, thus, 
are concerned that we have a compromise way forward, which is 
what we are trying to do with both the SDF and the Turks right 
now.
    Mr. Connolly. I think I am going to spend months trying to 
decipher that answer.
    Mr. Jeffrey. I know.
    Mr. Connolly. Congratulations. You are a very successful 
diplomat.
    Chairman Engel. Let me say to the gentleman from Virginia 
that I share his concern. I mentioned it before. And frankly, I 
hope that the things that we heard--we talked about this a few 
hours ago--about leaving, about our leaving Syria is not going 
to happen and leave the Kurds in jeopardy. It would just be the 
wrong thing to do morally. It would be the wrong thing to do in 
so many ways. It would send the wrong message, too, in the 
future that the United States is not a loyal and trusted ally; 
that you can do business with us, but when the going gets 
rough, you know, we are going to dump you and walk away. I do 
not think that is true, and I do not think it is something that 
we want to be known for. So, I just want, since you raised it 
again, I wanted to agree with you and----
    Mr. Connolly. I thank the chair.
    Chairman Engel [continuing]. Say that this is important. It 
is just really, really important that we look out for the well-
being of the Kurdish people in that region.
    Mr. Connolly. I thank the chair and I share his concerns.
    Chairman Engel. Thank you.
    Ms. Omar.
    Ms. Omar. Thank you, Chair.
    As a survivor of war, accountability and justice is really 
important to me. So, I wanted to talk to you about what kind of 
mechanisms that could be put in place to eventually find 
justice for both Assad and ISIS's victims in Syria. If this war 
ends as it seems likely to, with Assad still in power, what 
hope could there be for justice for these victims? We know that 
there is going to be a guaranteed veto from Russia on the 
Security Council. How is the United States planning to hold 
them accountable? And is there a consideration being given, 
early on right now, to what could possibly happen?
    Mr. Jeffrey. Right. This is a very important question. Of 
the six criteria that we say are necessary to return to a 
normal State of Syria and a normal relationship with us and the 
international community--and this is in the President's 
classified February report to Congress on our strategy--one of 
them is a State that holds itself and its officials accountable 
for war crimes. Given particularly the Syrian degree of war 
crimes, that is very important. It is also very important for 
getting the half the population that has fled to return, which 
is another one of our six goals.
    So, we have a variety of mechanisms. The U.N. has an 
independent monitoring commission. The Syrians themselves do a 
great job, through a variety of organizations. And right now, 
the----
    Ms. Omar. I mean, if I could interject, it is rare that in 
a civil war usually that war ends with that head of State still 
in power. And so, my question to you is, with him still being 
in power, are we prepared to hold him accountable?
    Mr. Jeffrey. We are prepared to hold the State accountable 
for--as is the international community, and there we have got a 
lot of support from the U.N. and the EU--we are prepared to 
hold them accountable. I would put it this way, because 
otherwise we go down the slope of regime change, we think we 
need a Syrian government and State that behaves dramatically 
differently to its own population and to its neighbors for 
there to be peace in the region. How we attain that, other than 
the general model laid out in U.N. Resolution 2254, is what we 
are doing with our diplomatic exchanges. But, yes, a regime 
that continues to behave like this neither deserves to, nor 
will, get the rest of Syria nor get its people back.
    Ms. Omar. That we can all agree on. Some Members of the 
Senate have proposed transferring ISIS detainees to Guantanamo. 
Is that still being considered? And do you believe you are 
going to need a congressional approval for that?
    Mr. Jeffrey. I have had no discussions or heard any 
discussions on that. Right now, our goal is to get these 
detainees to return to the countries from whence they came.
    Ms. Omar. And following up earlier about sort of the 
expansion or the possible expansion of ISIS, according to some 
of the intel that we have, very shortly after the President 
announced the withdrawal of troops, ISIS attacked and killed 
four Americans. Do you think that the timing was a coincidence? 
Might it have been responding to us?
    Mr. Jeffrey. From everything we know about that particular 
attack--and I was in that location fairly recently before the 
attack occurred--there was no link between the two. But we did 
know that, after the defeat of the ISIS caliphate, that is, the 
physical State occupying territory, that we would have a 
significant terrorist and insurgency problem with ISIS elements 
in Iraq and Syria, and we still have it. And we have to focus 
on it. It is why we have thousands of troops in Iraq, for 
example; why the President decided to keep a residual presence 
in northeastern Syria for the moment.
    Ms. Omar. And it seems like the particular conflict in 
Syria is being birthed out of a need for the people to have 
freedom and to actualize democracy. And I am concerned that 
most of our cues right now is being taken from Russia and 
Turkey and Israel. And so, I am wondering if that sort of is a 
counter-message to what we say we are interested in achieving 
in Syria.
    Mr. Jeffrey. Before I did Syria, I spent a decade doing 
Iraq, and believe me, in this chamber, there was a lot of 
understandable skepticism about us bringing democracy to Iraq. 
Well, first of all, we did not bring it. The Iraqis wanted it. 
And in the end, they have a constitutional democratic system. 
It has its faults, but it will stand up pretty well in that 
regard.
    I think the Syrian people, when they marched in 2011, 
wanted the same thing, and they still want the same thing. And 
the United Nations, with our strong support, is committed to 
giving it to them through free and fair elections, monitored by 
the United Nations, including the diaspora. That is half the 
country. If we can have an election like that, I think the 
people will be able to speak their will.
    Ms. Omar. That is wonderful, Ambassador. I believe 
democracy should not be given; they should be earned by the 
people. And we should be in partnerships with them. So, I 
appreciate you for being here and for updating us.
    I yield back.
    Mr. Jeffrey. Thank you.
    Chairman Engel. The gentlewoman yields back.
    And, Ambassador, we are now at the end. And I want to say 
personally thank you for excellent testimony and for excellent 
knowledge. This is a terrible, difficult part of the world, but 
I have always had good faith in our Ambassador corps, and you 
certainly have proven through the years that you are A1 in my 
book.
    So, I know that you understand the issues and understand 
the depth that we feel strongly here and frustrated that it has 
been so long and this butcher is clinging to power and might 
very well wind up staying in power. When we all saw the Arab 
Spring, and certainly in Syria, people were demonstrating for 
more freedom. And unfortunately, many of them were killed, and 
the Syrian people have just had unthinkable tragedy happen to 
them. So, America is important in the world. People look up to 
us.
    And with you at the helm, I feel much more comfortable with 
you working on this every single day. And I thank you for your 
service and thank you for your testimony this morning and this 
afternoon.
    So, the hearing is now over.
    [Whereupon, at 12:49 p.m., the committee was adjourned.]

                                APPENDIX

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
